<html>
<title> - EXAMINING THE FEDERAL GOVERNMENT'S ACTIONS TO PROTECT WORKERS FROM COVID-19</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   EXAMINING THE FEDERAL GOVERNMENT'S
                       ACTIONS TO PROTECT WORKERS
                             FROM COVID-19

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 28, 2020

                               __________

                           Serial No. 116-57

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     



    Available via the: https://edlabor.house.gov or www.govinfo.gov
    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-104 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------   
    
    
    
    
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Lloyd Smucker, Pennsylvania
Donald Norcross, New Jersey          Jim Banks, Indiana
Pramila Jayapal, Washington          Mark Walker, North Carolina
Joseph D. Morelle, New York          James Comer, Kentucky
Susan Wild, Pennsylvania             Ben Cline, Virginia
Josh Harder, California              Russ Fulcher, Idaho
Lucy McBath, Georgia                 Steve Watkins, Kansas
Kim Schrier, Washington              Ron Wright, Texas
Lauren Underwood, Illinois           Daniel Meuser, Pennsylvania
Jahana Hayes, Connecticut            Dusty Johnson, South Dakota
Donna E. Shalala, Florida            Fred Keller, Pennsylvania
Andy Levin, Michigan*                Gregory F. Murphy, North Carolina
Ilhan Omar, Minnesota                Van Drew, New Jersey
David J. Trone, Maryland
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

               ALMA S. ADAMS, North Carolina, Chairwoman

Mark DeSaulnier, California          Bradley Byrne, Alabama,
Mark Takano, California                Ranking Member
Pramila Jayapal, Washington          Mark Walker, North Carolina
Susan Wild, Pennsylvania             Ben Cline, Virginia
Lucy McBath, Georgia                 Ron Wright, Texas
Ilhan Omar, Minnesota                Gregory F. Murphy, North Carolina
Haley M. Stevens, Michigan
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 28, 2020.....................................     1

Statement of Members:
    Adams, Hon. Alma S., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     6
     Byrne, Hon. Bradley, Ranking Member, Subcommittee on 
      Workforce Protections......................................     8
        Prepared statement of....................................    11

Statement of Witnesses:
    Howard, Dr. John,MD, MPH, JD, LLM, MBA, Director, National 
      Institute for Occupational Safety and Health, Washington, 
      D.C........................................................    25
        Prepared statement of....................................    27
    Sweatt, Ms. Loren, Principal Deputy Assistant Secretary, 
      Occupational Safety and Health Administration, Washington, 
      D.C........................................................    15
        Prepared statement of....................................    17

Additional Submissions:
    Chairwoman Adams:
        Letter dated January 30, 2020............................   109
        Letter dated March 5, 2020...............................   136
        Letter dated March 18, 2020 from the U.S. Department of 
          Labor..................................................   113
        Letter dated May 15, 2020................................   123
        Letter dated May 20, 2020 from AFSCME....................   115
        Letter dated May 20, 2020 from the U.S. Department of 
          Health and Human Services..............................   118
        Letter dated May 26, 2020 from the U.S. Department of 
          Labor..................................................   125
        Letter dated May 27, 2020 from the United States Senate..   128
        Prepared statement from National Safety Council (NSC)....   132
        Letter dated May 29, 2020 from Chairman Scott............   138
        Letter dated June 10, 2020 from the U.S. Department of 
          Health and Human Services..............................   140
        Prepared statement from UFCW.............................   142
    Mr. Byrne:
        Letter dated April 30, 2020..............................   145
        Letter dated May 27, 2020 from the American Hospital.....    96
        Letter dated May 28, 2020 from the Coalition for 
          Workplace Safety (CWS).................................   100
        Letter dated May 28, 2020 from the National Association 
          of Manufacturers.......................................   104
    Questions submitted for the record by:
        Chairwoman Adams 

        Mr. Byrne 

        Jayapal, Hon. Pramila, Congressman from the State of 
          Washington.............................................   156
        Murphy, Hon. Gregory F., a Congressman from the State of 
          North Carolina.........................................   151
        Scott, Robert C. ``Bobby'', a Congressman from the State 
          of Virginia............................................   153
    Responses to questions submitted for the record by:
        Dr. Howard...............................................   158
        Ms. Sweatt...............................................   177

 
                   EXAMINING THE FEDERAL GOVERNMENT'S
                       ACTIONS TO PROTECT WORKERS
                             FROM COVID-19

                              ----------                              


                         Thursday, May 28, 2020

                       House of Representatives,

                 Subcommittee on Workforce Protections,

                   Committee on Education and Labor,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:19 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Alma Adams 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Adams, Takano, Jayapal, Wild, 
McBath, Stevens, Scott (ex officio), Byrne, Walker, Cline, 
Wright, Murphy, and Foxx (ex officio).
    Also Present: Representatives Levin, Shalala, Bonamici, 
Courtney, Castro, Roe, Walberg, Guthrie, Comer, Grothman, 
Watkins, Meuser, Smucker, Johnson, and Keller.
    Staff Present: Tylease Alli, Chief Clerk; Jordan Barab, 
Senior Labor Policy Advisor; Ilana Brunner, General Counsel; 
Ijeoma Egekeze, Professional Staff; Christian Haines, General 
Counsel; Sheila Havenner, Director of Information Technology; 
Eli Hovland, Staff Assistant; Stephanie Lalle, Deputy 
Communications Director; Jaria Martin, Clerk/Special Assistant 
to the Staff Director; Richard Miller, Director of Labor 
Policy; Katelyn Mooney, Associate General Counsel; Max Moore, 
Staff Assistant; Mariah Mowbray, Staff Assistant; Veronique 
Pluviose, Staff Director; Joshua Weisz, Communications 
Director; Cyrus Artz, Minority Staff Director; Gabriel Bisson, 
Minority Staff Assistant; Courtney Butcher, Minority Director 
of Member Services and Coalitions; Rob Green, Minority Director 
of Workforce Policy; Jeanne Kuehl, Minority Legislative 
Assistant; John Martin, Minority Workforce Policy Counsel; 
Hannah Matesic, Minority Director of Operations; Carlton 
Norwood, Minority Press Secretary; and Kelly Tyroler, Minority 
Professional Staff Member.
    Chairwoman Adams. Good morning. The Subcommittee on 
Workforce Protections will come to order.
    Welcome, everyone. I note that a quorum is present. I note 
for the Subcommittee that Mr. Courtney of Connecticut, Ms. 
Bonamici of Oregon, Mr. Norcross of New Jersey, Dr. Shalala of 
Florida, Mr. Levin of Michigan, Mr. Castro of Texas, Dr. Roe of 
Tennessee, Mr. Walberg of Michigan, Mr. Guthrie of Kentucky, 
Mr. Grothman of Wisconsin, Mr. Smucker of Pennsylvania, Mr. 
Banks of Indiana, Mr. Comer of Kentucky, Mr. Watkins of Kansas, 
Mr. Meuser of Pennsylvania, Mr. Johnson of South Dakota, Mr. 
Keller of Pennsylvania, are all permitted to participate in 
today's hearing, with the understanding that their questions 
will come only after all Members of the Subcommittee on 
Workforce Protections on both sides of the aisle who are 
present, either in person or via remote participation, pursuant 
to House Resolution 965 and the accompanying regulations 
thereto, have had an opportunity to question the witnesses.
    The Subcommittee is meeting today for a hearing to hear 
testimony on examining the Federal Government's actions to 
protect workers from COVID-19. All microphones, both in the 
hearing room and for those Members participating remotely, will 
be kept muted as a general rule to avoid unnecessary background 
noise. Members will be responsible for unmuting themselves when 
they are recognized to speak or when they wish to seek 
recognition.
    While a roll call is not necessary to establish a quorum in 
official proceedings conducted remotely or with remote 
participants -- participations, wherever there is an unofficial 
proceeding with remote participation, the Clerk will call the 
role to help make clear who is present at the start of the 
proceeding.
    At this time, I ask the Clerk to call the roll.
    The Clerk. Chairwoman Adams?
    Chairwoman Adams. Present.
    The Clerk. Mr. DeSaulnier?
    [No response.]
    The Clerk. Mr. Takano?
    Mr. Takano. Present.
    The Clerk. Ms. Jayapal?
    [No response.]
    The Clerk. Ms. Wild?
    Ms. Wild. Present.
    The Clerk. Mrs. McBath?
    Mrs. McBath. Present.
    The Clerk. Ms. Omar?
    [No response.]
    The Clerk. Ms. Stevens?
    Ms. Stevens. Present.
    The Clerk. Chairman Scott?
    Mr. Scott. Present.
    The Clerk. Mr. Byrne?
    Mr. Byrne. Here.
    The Clerk. Mr. Walker?
    Mr. Walker. Here.
    The Clerk. Mr. Cline?
    Mr. Cline. Here.
    The Clerk. Mr. Wright?
    [No response.]
    The Clerk. Mr. Murphy?
    [No response.]
    The Clerk. Ms. Foxx?
    [No response.]
    The Clerk. Chairwoman Adams, this concludes the roll call.
    Chairwoman Adams. Thank you very much.
    Pursuant to Committee Rule 7(c), opening statements -- let 
me remind all of the Committee Members, whether you are here or 
if you are particularly remote, please mute your microphone. 
Thank you.
    Pursuant to Committee Rule 7(c), opening statements are 
limited to the Chair and the Ranking Member. This allows us to 
hear from our witnesses sooner and provides all Members with 
adequate time to ask questions.
    I recognize myself now for the purpose of making an opening 
statement.
    Today's Subcommittee hearing will explore the performance 
of the Federal Government in protecting worker safety during 
the COVID-19 pandemic. I want to thank OSHA Deputy Assistant 
Secretary Sweatt and NIOSH Director Howard for joining us 
today.
    The COVID-19 pandemic has resulted in the worst worker 
safety crisis in OSHA's 50-year history. Nothing compares. In 
the past 4 months, more than 62,000 healthcare workers who we 
have asked to risk their lives without protective equipment 
have been diagnosed with COVID-19 and at least 291 have died. 
And this is an underestimate. According to CDC, these shocking 
numbers are a mere fraction of the true toll due to the absence 
of reporting by as many as 27 States, New York City, and the 
District of Columbia.
    As we know, infection outbreaks have not been limited to 
healthcare facilities. More than 17,000 meat-processing workers 
have been infected and an estimated 66 have died. One Iowa 
Tyson plant saw 60 percent of its employees test positive. A 
Greely, Colorado, meat-packing plant closed after hundreds fell 
ill. Although the plant promised to test every worker before 
reopening, the plant identified so many positive cases that it 
stopped testing and reopened anyway.
    Prisons, long-term care facilities, grocery stores, 
transportation systems, and warehouses have all experienced 
deadly outbreaks. Earlier this month, the CDC reported 2,778 
infections and 15 deaths among staff employed in correctional 
and detention facilities. From late January to late April, 
fully 36 percent of all reported infections at correctional 
facilities were suffered by staff.
    At least six employees of one warehouse in New York have 
died from COVID-19. 129 New York City transit workers have died 
of the virus.
    As of last week, 1,424 Veterans Administration employees 
have been diagnosed with COVID-19 and 31 have died.
    Some 2,400 postal workers have tested positive and 6 have 
died from COVID-related illnesses. United Parcel Service is 
facing an outbreak of 36 cases at its facility in Tucson.
    But as we will discuss today, we don't really know the toll 
to workers because this Nation has no system for collecting 
data on COVID-19 infections in the workplace, and employers are 
not obligated to publicly report these infections. Some 
government agencies refuse to make this information public due 
to employer concerns about adverse publicity, leaving workers 
and the public unaware of what risks they are facing.
    We cannot lose sight of the fact that this is largely a 
tragedy inflicted on our Nation's essential workers, people who 
don't have a choice on whether they have to go to work, people 
who don't have a choice on whether they -- and many of those 
are frontliners. They are low-income workers and 
disproportionately people of color who don't have the luxury of 
teleworking from home.
    COVID-19 is largely a workplace disease and a community 
tragedy. In Iowa, Nebraska, South Dakota, coronavirus cases 
linked to meat workers represent 18, 20, and 29 percent of the 
States' total cases, respectively, according to the 
environmental working group. My home State of North Carolina 
leads the Nation with the number of meat-packing plants facing 
an outbreak, with the State Department of Health and Human 
Services reporting that at least 23 plants have outbreaks with 
more than 1,300 worker infections.
    Yet OSHA, the agency that this Nation has tasked to protect 
workers, have been largely invisible. It has failed to develop 
the necessary tools that it needs to combat this pandemic and 
it has failed to fully use the tools that it has, instead, 
focusing principally on issuing press releases and voluntary 
guidance.
    This hearing will focus on why that is and the price that 
this Nation's workers are paying for OSHA's inaction.
    Deep into this pandemic, OSHA has still not developed any 
enforceable standards for employers to follow that can protect 
workers from the airborne transmission of the novel 
coronavirus. And OSHA's existing enforcement tools to combat 
this pandemic, which include standards covering respirators and 
personal protective equipment, are inadequate and unused.
    While guidance issued by the Centers for Disease Control 
and Prevention can be useful, it is not binding. Only OSHA can 
enforce safe working conditions.
    And although OSHA says it uses its enforcement authority to 
protect workers, OSHA's own data shows that the majority of its 
inspections are conducted only after workers have died. And 
OSHA has conducted complaint inspections for less than 1 
percent of the complaints filed.
    While the Secretary of Labor says it does not need an 
Emergency Temporary Standard because OSHA already has the tools 
that it needs to enforce its guidelines through the general 
duty clause, the embarrassing truth is that OSHA has not issued 
a single citation under the general duty clause to enforce that 
guidance. Not one.
    This worker safety crisis was clearly foreseeable, and OSHA 
was warned. It was clear after the H1N1 swine flu, the pandemic 
in 2009, that an infectious disease standard was needed that 
requires employers to assess the infectious disease risks in 
the workplaces and mitigate the hazards. Such a standard was 
well along the way at the beginning of the Trump 
Administration, but in February 2017, that draft standard was 
mothballed and relegated to the long-term regulatory agenda, 
where it languishes today.
    On January 1, I joined Chairman Bobby Scott in calling on 
OSHA to put the infectious disease standard back on the active 
agenda. In that letter, we also urged OSHA to issue a 
compliance directive for the healthcare sector and to issue an 
Emergency Temporary Standard if the situation deteriorated. At 
the time of our request, there were just five confirmed COVID-
19 infections in the U.S.
    Hearing nothing back, on March 5, we wrote OSHA again 
describing how hundreds of healthcare workers had been exposed 
and stated the obvious, that OSHA urgently needed to issue an 
Emergency Temporary Standard, an ETS.
    In mid-March, OSHA rejected an ETS on the grounds that the 
healthcare industry fully understands the gravity of the 
situation and is taking the appropriate steps to protect its 
workers.
    In April, with more than 720,000 infections nationwide, 
OSHA finally issued enforcement guidance but only covering the 
healthcare sector.
    In mid-May, as workers continued to face risks of 
infection, illnesses, and death, the agency is still refusing 
to issue an Emergency Temporary Standard to protect workers 
from exposure to coronavirus.
    And here is what OSHA Act says. It says, ``shall provide . 
. . for an Emergency Temporary Standard'' if it determines 
``that employees are exposed to a grave danger . . . '' from 
``new hazards,`` and ``that such emergency standard is 
necessary to protect employees from such danger.''
    Circumstances like this pandemic are the exact reason that 
this authority exists, yet OSHA continues to sit on the 
sidelines.
    So my question to the Secretary of Labor is, after tens of 
thousands of workplace infections and hundreds of worker 
deaths, why is OSHA missing in action?
    OSHA's failure to take meaningful action has sent a clear 
message to workers across the country that they are on their 
own.
    On Friday, May 15, the House of Representatives passed The 
Heroes Act, H.R. 6800, which included the ``COVID-19 Every 
Worker Protection Act,'' introduced by Chairman Scott, 
Representative Shalala, and myself. The bill directs OSHA to 
issue an Emergency Temporary Standard with 7 days to protect 
workers in hospitals, meat-packing plants, and retail stores, 
restaurants and offices and shipyards, and other workplaces 
where a person may face risk from exposure. The Heroes Act 
would also prohibit employers from retaliating against workers.
    As the States across the country begin to reopen, more 
workers will be at risk of infection unless OSHA starts doing 
its job. And if the reopening of workplaces drives up infection 
rates, States will be forced to reinstate stay-at-home orders 
which do further damage to our economy.
    The only logical conclusion I can draw is that OSHA's 
inadequate response to this pandemic has been informed more by 
politics rather than modern science. The necessity to protect 
workers should not be cramped by stale ideological notions 
about regulation, nor campaign slogans about repealing two 
regulations for every new one that is created.
    Today, we will explore and hopefully answer why there has 
been a lack of political will in the face of this public health 
disaster, and we will learn why no one seems to care enough to 
even track the number of workers who are getting sick and 
dying.
    And finally, I feel the need to respond to two items in Ms. 
Sweatt's written testimony. First, we note that because of a 
lawsuit, Ms. Sweatt will refuse to answer any questions about 
an Emergency Temporary Standard. And I want to note for the 
record that there is no legal basis for this refusal. It is 
purely a political statement.
    And secondly, I want to respond to Ms. Sweatt's testimony 
which implies that criticism of OSHA's failure to issue an 
emergency standard or enforce existing standards does a 
disservice to the hardworking men and women of OSHA. No one has 
more respect for the dedicated men and women -- or the 
dedicated staff of OSHA and the hard work that they do every 
day--than this Committee, as evidenced by our advocacy for the 
agency's budget and the opposition to the torrent of rollbacks 
to worker safety protection.
    The failure to completely address the life-threatening 
hazards that working Americans are facing from COVID-19 is not 
the fault of OSHA professional staff, but rather due to the 
unfortunate decisions of OSHA's political leadership.
    I would like to now yield to the Ranking Member, Mr. Byrne, 
for his opening statement.
    Mr. Byrne, you are recognized.
    [The statement of Chairwoman Adams follows:]

 Prepared Statement of Hon. Alma S. Adams, Chairwoman, Subcommittee on 
                         Workforce Protections

    Today's Subcommittee hearing will explore the performance of the 
federal government in protecting worker safety during the COVID-19 
pandemic. I want to thank OSHA Deputy Assistant Secretary Sweatt and 
NIOSH Director Howard for joining us today.
    The COVID-19 pandemic has resulted in the worst worker safety 
crisis in OSHA's 50-year history. Nothing compares.
    In the past 4 months, more than 62,000 health care workers, who we 
have asked to risk their lives without protective equipment, have been 
diagnosed with COVID-19 and at least 291 have died. And this is an 
underestimate. According to CDC, these shocking numbers are a mere 
fraction of the true toll due to the absence of reporting by as many as 
27 states, New York City and the District of Columbia.
    As we know, infection outbreaks have not been limited to health 
care facilities.
    More than 17,000 meat processing workers have been infected and an 
estimated 66 have died. One Iowa Tyson plant saw 60% of its employees 
test positive. A Greely Colorado meatpacking plant closed after 
hundreds fell ill. Although the plant promised to test every worker 
before reopening, the plant identified so many positive cases that it 
stopped testing and reopened anyway.
    Prisons, long-term care facilities, grocery stores, transportation 
systems and warehouses have all experienced deadly outbreaks.
    Earlier this month, the CDC reported 2,778 infections and 15 deaths 
among staff employed in correctional and detention facilities. From 
late January to late April, fully 36% of all reported infections at 
correctional facilities were suffered by staff.
    At least 6 employees of one warehouse in New York have died from 
COVID-19. One-hundred and twenty nine New York City transit workers 
have died of the virus.
    As of last week, 1,424 Veterans Administration employees have been 
diagnosed with COVID-19 and 31 have died.
    Some 2,400 postal workers have tested positive and 60 have died 
from COVID-related illnesses. United Parcel Service is facing an 
outbreak of 36 cases at its facility in Tuscon.
    But as we will discuss today, we actually don't really know the 
toll to workers because this nation has no system for collecting data 
on COVID-19 infections in the workplace. And employers are not 
obligated to publicly report these infections. Some government agencies 
refuse to make this information public due to employer concerns about 
adverse publicity, leaving workers and the public unaware of what risks 
they are facing.
    We cannot lose sight of the fact that this is largely a tragedy 
inflicted on our nation's essential workers. People who don't have a 
choice on whether they have to go to work. Many of those on the 
frontlines are low income workers and disproportionately people of 
color who don't have the luxury of teleworking from home.
    COVID-19 is largely a workplace disease and a community tragedy. In 
Iowa, Nebraska and South Dakota, coronavirus cases linked to meat 
workers represent 18, 20 and 29 percent of the states' total cases, 
respectively, according to the Environmental Working Group. My home 
state of North Carolina leads the nation with the number of meatpacking 
plants facing an outbreak--with the state Department of Health and 
Human Services reporting that at least 23 plants have outbreaks with 
more than 1,300 worker infections.
    Yet OSHA, the agency that this nation has tasked to protect 
workers, has been largely invisible. It has failed to develop the 
necessary tools it needs to combat this pandemic and it has failed to 
fully use the tools it has; instead focusing principally on issuing 
press releases and voluntary guidance.
    This hearing will focus on why that is and the price that this 
nation's workers are paying for OSHA's inaction.
    Deep into this pandemic, OSHA has still not developed any 
enforceable standards for employers to follow that can protect workers 
from the airborne transmission of the novel coronavirus.
    And OSHA's existing enforcement tools to combat this pandemic, 
which include standards covering respirators and personal protective 
equipment, are inadequate and unused.
    While guidance issued by the Centers for Disease Control and 
Prevention can be useful, it is not binding. Only OSHA can enforce safe 
working conditions.
    And although OSHA says it uses its enforcement authority to protect 
workers, OSHA's own data shows that the majority of its inspections are 
conducted only after workers have died. And OSHA has conducted 
complaint inspections for less than one percent of the complaints 
filed.
    And while the Secretary of Labor says it does not need an Emergency 
Temporary Standard, because OSHA already has the tools it needs to 
enforce its guidelines through the General Duty Clause, the 
embarrassing truth is that OSHA has not issued a single citation under 
the General Duty Clause to enforce that Guidance. Not one!
    This worker safety crisis was clearly foreseeable. And OSHA was 
warned. It was clear after the H1N1 Swine Flu pandemic in 2009 that an 
infectious disease standard was needed that requires employers to 
assess the infectious disease risks in their workplaces and mitigate 
the hazards. Such a standard was well along the way at the beginning of 
the Trump Administration, but in February 2017, that draft standard was 
mothballed and relegated to the ``long term'' regulatory agenda where 
it languishes today.
    In January, I joined Chairman Bobby Scott in calling on OSHA to put 
the infectious disease standard back on the active agenda. In that 
letter, we also urged OSHA to issue a compliance directive for the 
health care sector, and to issue an Emergency Temporary Standard if the 
situation deteriorated. At the time of our request, there were just 5 
confirmed COVID-19 infections in the United States.
    Hearing nothing back, on March 5th we wrote OSHA again describing 
how hundreds of health care workers had been exposed and stated the 
obvious: that OSHA urgently needed to issue an Emergency Temporary 
Standard
    (ETS). In mid- March, OSHA rejected an ETS on the grounds that 
``the health care industry fully understands the gravity of the 
situation and is taking the appropriate steps to protect its workers.''
    In April, with more than 720,000 infections nationwide, OSHA 
finally issued enforcement guidance, but only covering the health care 
sector.
    In mid-May, as workers continue to face risk of infection, illness, 
and death, the agency is still refusing to issue an Emergency Temporary 
Standard to protect workers from exposure to the coronavirus.
    Here is what the OSHA Act states: OSHA ``shall provide . . . . for 
an Emergency Temporary Standard'' if it determines ``that employees are 
exposed to a grave danger . . . .'' from ``new hazards'', and ``that 
such emergency standard is necessary to protect employees from such 
danger.''
    Circumstances like this pandemic are the exact reason this 
authority exists, yet OSHA continues to sit on the sidelines.
    My question to the Secretary of Labor is how, after tens of 
thousands of workplace infections and hundreds of worker deaths, why is 
OSHA missing in action?
    OSHA's failure to take meaningful action has sent a clear message 
to workers across the country that they are on their own.
    On Friday, May 15, the House of Representatives passed the Heroes 
Act (H.R. 6800) which included the COVID 19 Every Worker Protection Act 
introduced by Chairman Scott, Representative Shalala and myself. That 
bill directs OSHA to issue an Emergency Temporary Standard with seven 
days to protect workers in hospitals, meatpacking plants, retail 
stores, restaurants, offices, shipyards, and any other workplace where 
a person may face risk from exposure to the novel coronavirus from the 
public or from other workers. The Heroes Act would also prohibit 
employers from retaliating against workers for sounding the alarm about 
unsafe conditions.
    As the states across the country begin to reopen, more workers will 
be at risk of infection unless OSHA starts doing its job. And if the 
reopening of workplaces drives up infections rates, states will be 
forced to reinstate stay-at-home orders, which will do further damage 
to our economy.
    We simply cannot safely and effectively reopen our economy until we 
secure the safety of our workers.
    The only logical conclusion I can draw is that OSHA's inadequate 
response to this pandemic has been informed more by stale politics 
rather than modern science. The necessity to protect workers should not 
be cramped by stale ideological notions about regulation, nor campaign 
slogans about repealing two regulations for every new one that is 
created. The house is on fire, and we cannot waste time arguing about 
how to rewrite our building codes.
    Today, we will explore and hopefully answer why there has been the 
lack of political will in the face of this public health disaster. And 
we will learn why no one seems to care enough to even track the number 
of workers who are getting sick and dying.
    Finally, before I end, I feel the need to respond to two items in 
Ms Sweatt's written testimony.
    First, we note that because of a lawsuit, Ms. Sweatt will refuse to 
answer any questions about an Emergency Temporary Standard. I want to 
note for the record that there is no legal basis for this refusal; it 
is purely a political statement.
    Second, I want to respond to Ms. Sweatt's testimony which implies 
that criticism of OSHA's failure to issue a emergency standard or 
enforce existing standards ``does a disservice . . . to the hardworking 
men and women of OSHA.''
    No one has more respect for the dedicated staff of OSHA and the 
hard work they do every day than this Committee, as evidenced by our 
advocacy for the agency's budget and opposition to the torrent of 
rollbacks to worker safety protections. The failure to competently 
address the life-threatening hazards that working Americans are facing 
from COVID-19 is not the fault of OSHA professional staff, but rather 
due to the unfortunate decisions of OSHA's political leadership.
    I now yield to the Ranking Member, Mr. Byrne, for his opening 
statement.
                                 ______
                                 
    Mr. Byrne. Thank you, Madam Chairwoman, for yielding.
    Let me state for the record that the Chairwoman is here 
physically present in this room. The Chairman of the Full 
Committee, Mr. Scott, is physically present in the room. The 
Ranking Republican Member on the Committee is physically 
present here in the room. I am physically present here in the 
room. In fact, there are 15 Members of this Committee 
physically present in the room, nine Republicans, six 
Democrats. It is a safe environment, a simple environment. As 
you can tell, we are socially distanced.
    Not much has changed since the Democrats decided at the 
11th hour to unilaterally call off last week's hearing. OSHA 
and NIOSH officials, my Republican colleagues and I were ready 
then to talk about the important work these agencies are doing 
to combat COVID-19, and we are here again to do so today. It is 
indeed unfortunate the Democrats decided to play politics on an 
issue that they assert is a top priority.
    The COVID-19 pandemic has been an extraordinary time for 
all Americans. Many of us are coming out of mandatory stay-at-
home orders after 2 months or more. People are returning to 
work in a new environment with a disease that is still 
relatively new and about which we still have much to learn.
    We know the disease affects different people in different 
ways. Many people who test positive have no or mild symptoms, 
but a small percentage get very ill, and some of them, 
unfortunately, pass away. The two groups most likely to become 
very ill are those over 65, who make up 80 percent of all 
deaths in this country, and those with underlying health 
conditions as listed by the CDC.
    The disease also presents varied levels of risk for workers 
in different types of jobs. For example, an office worker who 
doesn't interact with the public faces much lower risk than a 
nurse in an ICU ward.
    I say all of this to make a point about the inherent 
difficulty in coming up with a reliable, single standard for 
workplace safety, whether it is for infectious disease in 
general or COVID-19 specifically.
    How did OSHA handle complex safety and health issues in the 
past? From SARS in the 2000s, during the Bush Administration, 
to MERS, H1N1 influenza, and Ebola during the Obama 
Administration, OSHA did not issue a new standard, but instead 
enforced existing standards and issued guidance, which, in 
turn, could be the basis for action against an employer under 
the general duty clause of the OSHA statute.
    Let me say that again. During the Obama Administration, 
under three separate diseases, OSHA did not issue a standard. 
They issued guidelines and relied upon those guidelines for 
enforcing the general duty clause.
    When the Acting Assistant Secretary for OSHA during H1N1, 
which the Chairwoman referred to, during that pandemic, a man 
named Jordan Barab, when he testified before this Committee in 
May of 2009, he said OSHA had created guidance, guidance, 
quote, to help employers determine the most appropriate work 
practices and precautions to limit the impact of the pandemic.
    He went on to say: ``Because safety risks are greater in 
certain workplaces, OSHA is focusing its direct efforts on 
educating employers and employees in the high-risk exposure 
categories.''
    At that time, he said OSHA issued an occupational risk 
pyramid to categorize workers' risk, which demonstrated that 
only a small portion of employees were at the highest exposure 
risk level. Mr. Barab specifically referenced standards already 
in place for personal protective equipment and respirators.
    He said that OSHA would use the general duty clause, quote, 
to ensure that employers follow the practices that public 
health experts agree are necessary to protect workers' health.
    Finally, he quoted President Obama's assessment for the 
situation as being, quote, one for cause for deep concern but 
not panic.
    What has OSHA done with COVID-19? Just like the Obama 
Administration, it has issued detailed guidelines, placed an 
enforcement emphasis on high-risk workplaces, used an 
occupational risk pyramid categorizing workers' risks, and 
reminded employers of OSHA's existing standards on PPE, 
respirators, sanitation and others, as well as their 
obligations under the OSHA Act's general duty clause to provide 
employers with a safe and healthy workplace.
    In addition, OSHA and the CDC have issued industry-specific 
guidance for healthcare, nursing home and long-term care, 
retail pharmacy, car service, package delivery, retail, 
construction, manufacturing, restaurant, and dental workplaces. 
And is still working on it.
    There are two problems with requiring a standard. First, we 
are still learning about this disease. And we just don't know 
enough information to meet the level necessary and appropriate 
to construct an adequate Emergency Temporary Standard and a 
permanent Federal regulation.
    That is why the various guidance documents already issued 
are so useful. They can be used -- they can be issued 
relatively quickly and modified as we learn more from the CDC 
and other public health officials and from the workplaces 
themselves. A standard, at this point, would be an unproductive 
burden for businesses already struggling to reopen, potentially 
exposing them to unnecessary liability risk during an already 
challenging time and would do little to advance workplace 
safety.
    Second, setting a standard just takes too long. On average, 
it takes OSHA 7 years to compile all the data necessary and 
meet all the regulatory requirements for issuing a standard.
    I know Democrats want an emergency technical -- temporary 
standard, or ETS, which according to their bill, must be done 
in 7 days. The last time OSHA issued an ETS was in 1983, and 
that one was overturned because OSHA could not meet the 
statutory threshold requirements for issuance. Indeed, OSHA has 
lost more ETS cases in Federal courts than it has won for the 
same reason.
    I know the Speaker included a provision requiring a 
standard in the bill passed by the House two weeks ago, a bill 
she created in her office, without any consultation with the 
White House or the Senate, and on which we never had a hearing 
or markup in this Committee, the Committee of jurisdiction. No 
regular order and no effort to obtain bipartisan consensus. 
That is no way to operate the House with a challenge of this 
magnitude, posed by the pandemic and our response to the 
pandemic. No wonder that bill is dead on arrival in the Senate.
    I also know the AFL-CIO filed a lawsuit last week to force 
OSHA to issue a standard. They filed a lawsuit. Expensive and 
time-consuming litigation against a Federal agency responsible 
for protecting our Nation's workers in the midst of a pandemic 
is unhelpful and very unlikely to succeed.
    And, Madam Chairwoman, I take exception to your remarks 
about the witness' ability to talk about that lawsuit and 
matters involved in that lawsuit. No lawyer is going to let 
their client talk about something like that with pending 
litigation. It is a matter of every lawyer that has a client in 
litigation like that is going to ask them to be careful about 
that. And to expect them not to follow their lawyer's advice is 
totally unfair to them.
    I must say that when I started preparing for this hearing 
with my staff two weeks ago, I was impressed, very impressed, 
with the diligence and speed with which OSHA has fashioned its 
response. Remember, we didn't know about this disease five 
months ago. Their experience with past pandemics surely helped, 
and I am glad they both followed and built upon this 
experience.
    I have talked with hundreds of businesses trying to decide 
whether and how to reopen, and that is probably true for every 
Member in this room. Those conversations always include a real 
concern for the health of their employees. They have consulted 
CDC. They have consulted local and State public health 
officials and their industry organizations, and yes, they are 
closely following this OSHA guidance, which they are truly 
grateful for. They want to provide their employees a safe 
workplace, and OSHA is helping them achieve that. Isn't that 
what the OSHA statute's purpose is? Helping employers and 
employees keep their workplaces safe and healthy?
    I am looking forward to the testimony today. And I thank 
the witnesses for appearing in the midst of what I know is a 
very busy time for them. Let's all work together to protect the 
most important part of the American economy, the working men 
and women who make this country so very prosperous, including 
the healthcare workers, like my sister-in-law, Cynthia Dukes, 
who is an ICU nurse. I want her to be safe and healthy as she 
goes about her extremely important work, even as we sit here, 
taking care of the sickest of us. She and her colleagues 
deserve nothing less, and they are best served by us when we 
work together for them, and not for special interests, and we 
stop the wasteful litigation and the partisan legislative 
games.
    America will get through this. We can protect our people 
who are most vulnerable to this disease and reopen the American 
economy safely as we start on another road to recovery and 
prosperity for all. President Obama was right, there is cause 
for great concern but not panic. And if OSHA's response was the 
best way to go for SARS, MERS, H1N1, and Ebola, why is it not 
best for COVID-19?
    Thank you, and I yield back.
    [The statement of Mr. Byrne follows:]

Prepared Statement of Hon. Bradley Byrne, Ranking Member, Subcommittee 
                        on Workforce Protections

    ``Let me state for the record that I, Ranking Member Foxx, and 
other Members are here in the Committee room in Washington, socially 
distanced. It is a relatively simple and safe environment here.
    In fact, not much has changed since the Democrats decided at the 
eleventh hour to unilaterally call off last week's hearing. OSHA and 
NIOSH officials, my Republican colleagues, and I were ready then to 
talk about the important work these agencies are doing to combat COVID-
19 and we are here again today to do so. It's unfortunate the Democrats 
decided to play politics on an issue they assert is a top priority.
    The COVID-19 pandemic has been an extraordinary time for all 
Americans. Many of us are coming out of mandatory stay- at- home orders 
after two months. People are returning to work in a new environment 
with a disease that is still relatively new and about which we still 
have much to learn.
    We know the disease affects different people in different ways. 
Many people who test positive have no or mild symptoms, but a small 
percentage get very ill, and some of them, unfortunately, pass away. 
The two groups most likely to become very ill are those over 65, who 
make up 80% of all deaths, and those with underlying health conditions 
as listed by the CDC.
    The disease also presents varying levels of risk for workers in 
different types of jobs. For example, an office worker who doesn't 
interact with the public faces much lower risk than a nurse in an ICU 
ward.
    I say all of this to make a point about the inherent difficulty in 
coming up with a reliable single standard for workplace safety, whether 
it's for infectious diseases in general or COVID-19 specifically.
    How did OSHA handle complex safety and health issues in the recent 
past? From SARS in the 2000s during the Bush Administration to MERS, 
H1N1 influenza, and Ebola during the Obama Administration, OSHA didn't 
issue a new standard but, instead, enforced existing standards and 
issued guidance, which in turn could be the basis for action against an 
employer under the General Duty Clause of the OSHA statute.
    When the Acting Assistant Secretary for OSHA during the H1N1 flu 
pandemic, Jordan Barab, testified before this Committee in May of 2009, 
he said OSHA had created guidance 'to help employers determine the most 
appropriate work practices and precautions to limit the impact' of the 
pandemic. And 'because safety risks are greater in certain workplaces, 
OSHA is focusing its direct efforts on educating employers and 
employees in the higher-risk exposure categories.' OSHA issued an 
'Occupational Risk Pyramid' to categorize workers' risk which 
demonstrated that only a small portion of employees were at the highest 
exposure-risk level. Mr. Barab specifically referenced standards 
already in place for personal protective equipment and respirators. He 
said that OSHA would use the General Duty Clause to 'ensure that 
employers follow the practices that public health experts agree are 
necessary to protect workers' health.' Finally, he quoted President 
Obama's assessment of the situation as being one of 'Cause for deep 
concern, but not panic.'
    What has OSHA done with COVID-19? Just like the Obama 
Administration, it has issued detailed guidelines; placed an 
enforcement emphasis on higher risk workplaces; used an 'Occupational 
Risk Pyramid' categorizing workers' risk; and reminded employers of 
OSHA's existing standards on PPE, respirators, sanitation, and others, 
as well as their obligations under the OSH Act's General Duty Clause to 
provide employers with a safe and healthful workplace. In addition, 
OSHA and the CDC have issued industry-specific guidance for health 
care, nursing home and long-term care, retail pharmacy, car service, 
package delivery, retail, construction, manufacturing, restaurant, and 
dental workplaces.
    There are two problems with requiring a standard.
    First, we are still learning about this disease and we just don't 
know enough information to meet the level necessary and appropriate to 
construct an adequate Emergency Temporary Standard and a permanent 
federal regulation. That's why the various guidance documents already 
issued are so useful. They can be issued relatively quickly and 
modified as we learn more from the CDC and other public health 
officials, and from the workplaces themselves. A standard at this point 
would be an unproductive burden for businesses already struggling to 
reopen, potentially exposing them to unnecessary liability risks during 
an already challenging time, and would do little to advance workplace 
safety
    Second, setting a standard just takes too long. On average, it 
takes OSHA on average seven years to compile all the data necessary and 
meet all the regulatory requirements for issuing a standard. I know 
Democrats want an Emergency Temporary Standard, or ETS, which, 
according to their bill, must be done in seven days. The last time OSHA 
issued an ETS was in 1983 and that one was overturned because OSHA 
couldn't meet the statutory threshold requirements for issuance. 
Indeed, OSHA has lost more ETS cases in federal courts than its won for 
this same reason.
    I know the Speaker included a provision requiring a standard in the 
bill passed by the House two weeks ago, a bill she created in her 
office, without any consultation with the White House or the Senate and 
on which we never had a hearing or markup in this committee, the 
committee of jurisdiction. No regular order and no effort to obtain bi-
partisan consensus. That's no way to operate the House with a challenge 
of this magnitude posed by the pandemic and our response to the 
pandemic. No wonder that bill is DOA in the Senate.
    I also know the AFL-CIO filed a lawsuit last week to force OSHA to 
issue a standard. Expensive and time-consuming litigation against the 
federal agency responsible for protecting our nation's workers in the 
midst of a pandemic is unhelpful and very unlikely to succeed.
    I must say that when I started preparing for this hearing with my 
staff two weeks or so ago, I was impressed with the diligence and speed 
with which OSHA has fashioned its response. Their experience with past 
pandemics surely helped, and I'm glad they both followed and built upon 
this past experience.
    I've talked with hundreds of businesses trying to decide whether 
and how to reopen. Those conversations always include a real concern 
for the health of their employees. They've consulted CDC, local and 
state public health officials, and their industry organizations. And, 
yes, they are closely following this OSHA guidance, which they are 
truly grateful for. They want to provide their employees a safe 
workplace, and OSHA is helping them achieve that. Isn't that what the 
OSHA's statute's purpose is, helping employers and employees keep their 
workplaces safe and healthy?
    I'm looking forward to the testimony today and I thank the 
witnesses for appearing in the midst of what I know is a very busy time 
for them. Let's all work together to protect the most important part of 
the American economy, the working men and women who make this country 
so very prosperous, including the health care workers, like my sister-
in-law, Cynthia Dukes, who is an ICU nurse. I want her to be safe and 
healthy as she goes about her extremely important work, even as we sit 
here, taking care of the sickest of us. She and her colleagues deserve 
nothing less. And they are best served by us when we work together, for 
them and not for special interests, and when we stop the wasteful 
litigation and the partisan legislative games.
    America will get through this. We can protect our people who are 
most vulnerable to this disease and reopen the American economy safely 
as we start on another road to recovery and prosperity for all. 
President Obama was right: there is cause for great concern but not 
panic. And if OSHA's response was the best way to go for SARS, MERS, 
H1N1, and Ebola, why is it not best for COVID-19?''
                                 ______
                                 
    Chairwoman Adams. I want to thank the Ranking Member, but I 
just want to just respond for a moment, Mr. Byrne. Obama 
started work on a permanent airborne disease standard, and 
Trump put it back on the back burner, and still after a hundred 
thousand deaths, it is still pending, so --
    Votes are going to be called in 5 minutes, but let me 
introduce the witnesses.
    Any other Members who wish to insert written statements 
into the record may do so by submitting them to the Committee 
Clerk electronically in Microsoft Word by 5 p.m. on June 10, 
2020.
    Let me introduce the two witnesses before we will have to 
take a break.
    Our first witness will be Ms. Loren Sweatt. Ms. Sweatt is 
the Principal Deputy Assistant Secretary for the Occupational 
Safety and Health Administration. She joined OSHA on July 24, 
2017, coming from this Committee, where she was Senior Policy 
Adviser at the Committee on Education and Workforce for 15 
years. In that role, Ms. Sweatt handled workplace safety issues 
before the Committee, including OSHA and the Mine Safety and 
Health Administration.
    Our next witness will be Mr. John Howard -- or Dr. John 
Howard, excuse me. Dr. Howard is the Director of the National 
Institute for Occupational Safety and Health. He has held that 
position since 2009. Dr. Howard previously served as Director 
of the Institute from 2002 to 2008. Prior to coming to NIOSH, 
Dr. Howard was Chief of the Division of Occupational Safety and 
Health for the California Department of Industrial Relations, 
Labor, and Workforce Development.
    We are going to -- I am going to -- do we adjourn?
    Okay. We are going to proceed with the hearing and with the 
witness testimony.
    So we appreciate the witnesses for participating today, and 
we look forward to your testimony. But let me remind the 
witnesses that we have -- we have read your witness statements, 
and they will appear in full in the hearing record.
    Pursuant to Committee Rule 7(d) and Committee practice, 
each of you is asked to limit your oral presentation to 5-
minute summary of your written statement. And let me remind the 
witnesses that pursuant to Title 18 of the U.S. Code Section 
1001, it is illegal to knowingly and willfully falsify any 
statement, representation, written document, or material fact 
presented to Congress, or otherwise conceal or cover up a 
material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will, 
in turn -- the Members can hear you. And as you begin to speak, 
the light in front of you will turn green. After 4 minutes, the 
light will turn yellow to signal that you have 1 minute 
remaining. When the light turns red, your 5 minutes have 
expired, and we ask that you please wrap it up.
    We will let both witnesses make their presentations before 
we move to Member questions. When answering a question, please 
remember to once again turn your microphone on.
    Ms. Sweatt, we are going to first recognize you.

     STATEMENT OF LOREN SWEATT, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY, OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION, 
                        WASHINGTON, D.C.

    Ms. Sweatt. I am sorry. Thank you for the opportunity to 
highlight the Occupational Safety and Health Administration's 
important work of protecting our Nation's workers.
    I am proud of the work this agency has done during the 
Trump Administration, but I am particularly proud of the work 
it is performing right now as it responds to a worldwide health 
crisis.
    The work of the agency continues uninterrupted even as we 
respond to this pandemic. Between February 1 and May 21, OSHA 
received over 5,000 non-COVID-19 complaints and conducted 5,009 
investigations based on these complaints and 969 inspections. 
During this time, OSHA has also received over 2,300 non-COVID-
19 whistleblower complaints, which are being evaluated along 
with the COVID-19 whistleblower complaints.
    I am so proud of the dedication to OSHA's mission of our 
hardworking compliance safety and health officers and all of 
the agency's personnel. Our CSHOs are initiating thousands of 
investigations of complaints. Our compliance assistance staff 
are working with employers across the country to help ensure 
safe and healthful working conditions for the Nation's workers.
    Our training and education staff have moved quickly to 
provide training to CSHOs, and before, during, and after the 
pandemic, my goal is for OSHA's efforts to prevent workers from 
ever becoming ill or injured because they are doing their job.
    OSHA's efforts to address COVID-19 has been its top 
priority since February. OSHA quickly pivoted to focus 
intensely on giving employers and workers the guidance they 
need to work safely in this rapidly changing situation. Where 
appropriate, OSHA has also enforced safety and health 
standards. Throughout this crisis, the incredible men and women 
of OSHA have remained committed to carrying out their mission 
to keep America's workers safe and healthy.
    OSHA's initial response to the pandemic was to provide 
extensive guidance, often in conjunction with the CDC. Guidance 
has allowed the agency to be more nimble in response to the 
ever-changing understanding of the virus.
    OSHA continues to issue industry-specific alerts that 
provide targeted guidance on practices and procedures that will 
help workers' health and safety. To date, OSHA has issued 
general industry guidance, and it has also issued guidance 
documents to protect workers in numerous specific industries, 
including meat-packing and processing, healthcare, nursing 
homes, restaurants, dentistry, and manufacturing. OSHA has also 
distilled its extensive guidance into a wide variety of useable 
worker education segments available on OSHA's website.
    While extensive guidance is important to the rapidly 
changing dynamic of this pandemic as it continues, it is 
important to recognize OSHA's existing standards serve as the 
basis for its COVID-19 enforcement. Those standards include 
rules regarding respiratory protection, personal protective 
equipment, eye and face protection, sanitation, and hazard 
communication.
    In addition to those existing authorities, OSHA has also 
the ability to take appropriate action against employers under 
the OSH Act's general duty clause.
    OSHA was recently sued by the AFL-CIO for an Emergency 
Temporary Standard, and as we have discussed today, I cannot 
comment further surrounding the ETS or litigation.
    The flexibility and responsiveness allowed through guidance 
is apparent in the two revised enforcement policies issued last 
week by OSHA. As States are beginning to reopen their 
economies, OSHA is acting to ensure employers are protecting 
their employees.
    First, OSHA is increasing in-person inspections at all 
types of workplaces. Second, OSHA is clarifying its previous 
enforcement policy for recording cases of coronavirus. Under 
the new policy, OSHA will enforce recordkeeping requirements 
for employee coronavirus illnesses for all employers.
    But to repeat, OSHA will not use guidance as a substitute 
for enforcement. Rather, the agency has the tools and intent to 
pursue both avenues. Where there are safety issues, OSHA 
remains, as always, shoulder to shoulder with America's 
workers.
    OSHA is charged with protecting the rights of 
whistleblowers under 23 statutes. As the Secretary of Labor has 
made clear from the White House podium, multiple national 
interviews, and additional conversations with stakeholders, 
retaliation against workers is unacceptable.
    In this pandemic, OSHA inspectors are initiating thousands 
of investigations. This is resulting in employers receiving up-
to-date information about how to better protect their workers. 
During this same time, OSHA inspectors continue to respond to 
non-COVID-19 worker fatalities and complaints.
    Through the tireless efforts of the entire agency, OSHA's 
continuous outreach and communication to workers and employers 
and its issuance of important guidance, OSHA is on the job 
protecting America's workers.
    I am happy to answer any questions you may have.
    [The statement of Ms. Sweatt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Adams. Thank you, Ms. Sweatt.
    Dr. Howard, you have 5 minutes, sir.

  STATEMENT OF JOHN HOWARD, MD, MPH, JD, LLM, MBA, DIRECTOR, 
    NATIONAL INSTITUTE FOR OCCUPATIONAL SAFETY AND HEALTH, 
                        WASHINGTON, D.C.

    Dr. Howard. Good morning, Chairwoman Adams and Ranking 
Member Byrne, Chairman Scott and Ranking Member Foxx. My name 
is John Howard, and I am the Director of the National Institute 
for Occupational Safety and Health, which is part of the 
Centers for Disease Control and Prevention in the U.S. 
Department of Health and Human Services. I am pleased to 
provide the Subcommittee information about the COVID-19 
response activities undertaken by NIOSH over the past few 
months.
    To date, just over 1.6 million cases of COVID-19 have been 
reported to CDC. Many of these cases are in working-age adults. 
For example, as of today, May 28, there have been 62,690 cases 
of COVID-19 among healthcare workers, with 294 deaths. However, 
the total number of healthcare worker cases is likely to be an 
underestimate due to data collection challenges arising from 
the pandemic.
    Currently, CDC and NIOSH are actively working to address 
the issue of capturing occupational data as it relates to 
COVID-19 cases.
    A new case report form released on May 5 added questions 
about workplace exposures for healthcare workers and workers in 
other critical infrastructure industries. States have been 
asked to start using this new form by May 15.
    Activities by NIOSH as a part of CDC's response to COVID-19 
fall into three main categories. First, respiratory protective 
devices. Through NIOSH's National Personal Protective 
Technology Laboratory, NIOSH is responsible for establishing 
criteria, testing, and certifying respiratory protective 
devices, including filtering facepiece respirators. The most 
common type is the N95.
    During the global supply shortage caused by the pandemic, 
NIOSH and CDC have taken steps to increase the supply of 
available certified respirators by, one, supporting existing 
NIOSH respirator approval holders to increase their ongoing 
production; two, quickly evaluating new domestic respirator 
applications for approval; three, providing up-to-date 
guidance, especially with regard to respirators made by non-U.S 
manufacturers; and four, tripling respirator approval 
decisions.
    To expand the range of respirators available to healthcare 
workers, NIOSH works with FDA on its emergency-use 
authorizations which can significantly expand the inventory of 
respirators available for use in healthcare settings by, one, 
permitting the use of powered air purifying respirators, or 
PAPRs, elastomeric respirators, and other NIOSH-approved 
filtering facepiece respirators besides the N95, that had not 
been previously cleared by FDA for use in healthcare settings; 
second, permitting the use of stockpiled respirators that had 
exceeded their rated shelf life; three, permitting the use of 
certain respirators from foreign countries approved under the 
performance standards in those countries; and four, permitting 
the reuse of certain decontaminated filtering facepiece 
respirators.
    Second, field survey support for State health departments. 
NIOSH deployed staff to 34 States and 18 poultry, 11 beef, and 
5 poultry processing workplaces, representing 15 separate 
companies.
    The number of cases of COVID-19 in meat processing is 
significant. NIOSH has reviewed plant facilities, processes, 
operations. CDC's epidemiologists and partners from State and 
local health departments evaluated plant and community 
infection control plans through various methodologies. A 
typical site visit examines multiple features of the plant's 
operations.
    Third, guidance. NIOSH has, through the Emergency 
Operations Center at CDC, worked with our partner agencies, 
including OSHA, the Department of Agriculture, and the 
Department of Transportation, to produce numerous guidance 
documents and fact sheets for employers and workers in various 
industries and occupations. For example, CDC and OSHA have 
coauthored interim guidance for the meat and poultry packing 
industry and interim guidance for manufacturing workers and 
employers.
    Thank you again for the opportunity to participate in 
today's hearing. I look forward to answering your questions.
    [The statement of Dr. Howard follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Adams. Thank you very much.
    Mr. Scott. I think, are we going to go vote and then come 
right back? Can we do that?
    Chairwoman Adams. They have called for votes, so we are 
going to go and vote in vote rotations until we get further 
information. I am on that first rotation, so, Mr. Scott, will 
you --
    [Discussion held off the record.]
    Mr. Scott. [Presiding.] We apologize. We were hoping to go 
vote all at the same time, but apparently that is -- we don't 
have permission to do that yet.
    First question will be the gentleman from California, Mr. 
Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    And thank you, Chairwoman Adams, for organizing this 
critical hearing on the need to protect workers from 
coronavirus.
    The role of the Occupational Safety and Health 
Administration is to, quote, ensure safe and healthful working 
conditions for working men and women by setting and enforcing 
standards, end quote. During this current pandemic, where 
nearly 1.5 million people have been infected with COVID-19 and 
nearly 100,000 people in this country have died, OSHA has 
completely abandoned its responsibilities and is not holding up 
to its mission.
    The general duty clause of the Occupational Safety and 
Health Act requires employers to provide employees with, quote, 
a workplace free from recognized hazards likely to cause death 
or serious physical harm, end quote. And based on my review of 
the nearly 5,000 COVID-19-related complaints filed by workers, 
it is evident that many employers are not making good-faith 
efforts to protect their workers.
    Ms. Sweatt, is OSHA prepared to conduct mandatory onsite 
inspections in response to worker complaints that allege 
serious health violations, not just for those complaints that 
result in a fatality?
    Ms. Sweatt. Yes. OSHA is working proactively since the 
beginning of February to address the COVID-19 hazard. We have, 
as you said, over 5,000 complaints, and our inspectors are 
investigating all of them. Where they are getting information 
from employers that is not adequate, they are opening 
investigations. And so, yes, the agency has been doing its job 
since the beginning of this pandemic.
    Mr. Takano. Do you have enough inspectors to be able to do 
this in a timely manner?
    Ms. Sweatt. I think folks know that we have been actively 
trying to hire investigators since August of 2017. We are 
appreciative of Congress providing us more funding so that we 
can hire 50 this year. Until March of this year, we were in an 
unprecedented competition with the private sector to find and 
hire adequate workers. This is a highly skilled profession, and 
we have been trying to get folks to come in and serve the 
mission of the agency. It has been something that is a priority 
of mine since I started in July of 2017. But it was very 
challenging with record low unemployment numbers to get people 
to come in with the skills that we need. So, yes, we are 
pursuing more inspectors --
    Mr. Takano. Ms. Sweatt, how many, if I may, excuse me, how 
many workers do you need, and how many positions remain 
unfilled?
    Ms. Sweatt. Well, we have 50 that are funded by Congress 
this year that we are trying to fill. Even in the midst of this 
pandemic, we are actively recruiting folks to come and work for 
us, and we are seeing results. So we will work as hard as we 
can and as diligently as possible to hire those folks and get 
them through our process and get more people to have more boots 
on the ground.
    Mr. Takano. Ms. Sweatt, as the lead agency, how will OSHA 
work to enforce national policies for each agency that you work 
with and make sure rules are applied and followed uniformly 
from facility to facility?
    Ms. Sweatt. Well, I think the question is about our 
engagement with our Federal partners.
    Mr. Takano. Yes.
    Ms. Sweatt. And, you know, our folks are on about 10 
Federal task forces related to COVID specifically. We are 
engaged with NIOSH and the CDC to write these guidance 
documents that you have seen. The most important that we have 
issued lately is the meat-packing guidance. We issued 
construction on Monday.
    We are working on more as we identify industries that need 
to understand what we are requiring, and we will continue to do 
that to the best of our ability.
    Mr. Takano. Ms. Sweatt, just recently -- I am looking at 
the clock and I just --
    Staff. Yeah. It was never --
    Mr. Takano. Okay. All right.
    You know, rather than enforcing OSHA's role, the Trump 
Administration plan for opening up America again attempts to 
shift workplace safety preparedness to the States by 
highlighting the States' responsibility for the health and 
safety of workers in critical industries. Ms. Sweatt, was OSHA 
consulted in preparing this plan?
    Ms. Sweatt. All of those plans go through clearance, and I 
would say that they may be talking about the State and local 
health authorities, but, you know, OSHA is in approximately 26 
States, and then there is 22 States with State plans --
    Mr. Takano. But specifically on the Trump Administration's 
plan to open up America again, was OSHA consulted in preparing 
this plan?
    Ms. Sweatt. I do believe that OSHA participated in the 
clearance plan, yes.
    Mr. Takano. You don't know for sure?
    Ms. Sweatt. I do believe that we did, yes.
    Mr. Takano. Does this approach effectively sideline OSHA in 
its role for protecting workers?
    Ms. Sweatt. No, I do not believe it does.
    Mr. Takano. Even though it highlights the States' 
responsibilities? I mean, it does not deemphasize OSHA?
    Ms. Sweatt. I do not think so.
    Mr. Takano. Is this plan consistent with the OSHA Act?
    Ms. Sweatt. As I said, Federal OSHA exists in specific 
States, and then there are State plans, of which we provide 
grant money to. So where we are in jurisdiction, we will be in 
enforcement mode, and we will be doing our job. I do not 
believe that plan changes our obligations.
    Mr. Takano. Thank you. I yield back.
    Mr. Scott. (Off mike.)
    Ms. Sweatt. I can come work the clock.
    Mr. Scott. The gentleman from Alabama.
    Mr. Byrne. Thank you, Mr. Chairman.
    First of all, let me thank you again, both of you, for 
being here. I know you are very busy.
    Ms. Sweatt, you heard me recite the testimony of one of 
your predecessors during the Obama Administration, and so I 
want to ask you a simple question. How is OSHA's COVID-19 
response similar or different from the approach taken by the 
Obama Administration during the H1N1 pandemic?
    Ms. Sweatt. We have followed the H1N1 pandemic strategy 
almost to the T. It has been very important for us to get the 
message out. We started as early as January with the safety and 
health topics page. We provided general guidance for all 
industries so that they could plan to protect their workers.
    And as the pandemic has spread, we have provided industry 
guidance for very specific industries, and I think we are doing 
what we are supposed to do -- enforcement, compliance 
assistance, and training and education of everyone that will 
come to us and work with us on our guidance. And I don't think 
that we have diverted from what the plan was with H1N1.
    Mr. Byrne. Can you elaborate on how OSHA has historically 
responded to emerging workplace hazards and why the agency has 
used compliance initiatives, coupled with enforcement of 
existing standards, including the OSHA Act's general duty 
clause, as effective measures to respond quickly during a 
pandemic?
    Ms. Sweatt. Thank you. I would like to say that we respond 
to a lot of different issues and have since I started in July 
of 2017, natural disasters, hurricanes. Typically, in those 
situations we suspend enforcement. In this instance, we 
proactively determined that we would stay in enforcement mode 
and we would use all the enforcement tools available to us.
    One of those is the investigation for complaints. As we 
have noted, we have received over 5,000 complaints, and the 
approach that we have taken -- and this gets us into the 
employer almost immediately, puts them on notice that someone 
has said there is a problem and that we are following up. It is 
one of the fastest ways to achieve resolution in the situation 
to get the worker on -- or the employer on notice and the 
worker out of the hazard.
    Mr. Byrne. Thank you.
    Dr. Howard, what resources has NIOSH developed to educate 
employers and workers on how best to keep workplaces safe, and 
do you anticipate that NIOSH will continue to update this 
information?
    Dr. Howard. Well, let me take the second question. The 
answer is definitely yes. Our guidance changes rapidly, and I 
always tell people, don't print out CDC guidance from your 
printer because it may be out of date the next time you go to 
the website. This is a rapidly evolving situation. So our 
guidance changes pretty much every week and sometimes every 
day.
    The first question, we do a lot of educational guidance 
with regard to both these congregate working situations which 
are at highest risk, such as a nursing home, a meat-packing 
plant, situations in which congregate commerce occurs, where 
you have a worker and a customer close together. So we are 
doing a lot to educate the worker and the employer on these 
situations.
    Mr. Byrne. Good.
    So, Ms. Sweatt, let me go back to you for a second. We are 
beginning to see a lot of businesses reopen, which I want to 
say I think is a very good thing. So how does OSHA plan to 
engage with employers and workers, as Dr. Howard said, to 
ensure successful workplace safety outcomes?
    Ms. Sweatt. We are going to continue providing guidance, 
and as folks look to reopen, we will be working -- or we are 
actually working on reopening guidance so that when employers 
are looking at what they are going to do to protect their 
workers, we can explain how that intersects with our existing 
standards and regulations and what they need to do in order to 
be in compliance as they go forward.
    But the existing guidance that we have, that we have worked 
with NIOSH and others, really does provide a very productive 
roadmap for what employers should be doing as they look to 
reopen their businesses.
    Mr. Byrne. And, Dr. Howard, I think you kind of alluded to 
this earlier, let me go back to you about this, but CDC and all 
the rest of us are learning about this disease, like, 
literally, something new every day. So as you issue new 
guidance, you are taking into account what CDC and other people 
are telling you? But as you said earlier, it is happening so 
rapidly, you don't even print it out. You just put it on -- you 
know you are going to have to change it the next day. How 
difficult does that make it for both of you to actually try to 
come up with a, quote, standard as opposed to guidance?
    Dr. Howard. I think it is very difficult. Guidance is, as 
you mentioned, an easier pathway, based on the best 
professional judgment and hopefully the best science that we 
have. And it can be easily done, although the review process is 
long and detailed, as it should be. But when we learn something 
new, that guidance can be changed almost instantaneously.
    In the case of the meat-packing guidance, which we and OSHA 
put together, one of the big issues now is establishment level 
testing. Well, that is not really something that we put in the 
current edition of the guidance, but we are beginning to think 
more seriously about how you do that, because as we know, many 
meat-packing processing plants are doing that kind of testing. 
So we are beginning to think about that. So in the next 
iteration of our guidance, we may have more information about 
testing.
    Mr. Byrne. Thank you. And I yield back.
    Mr. Scott. Thank you. The gentlelady from Georgia, Mrs. 
McBath.
    Mrs. McBath. Thank you, Mr. Chairman, and thank you for 
convening this hearing this morning. And thank you to both of 
our witnesses. We appreciate you being here.
    Over the last 3 months, we have watched as the COVID-19 
coronavirus has made its devastating impact on this Nation. 
100,000 Americans have died from this disease. The magnitude of 
loss is simply staggering. For those that we have lost and the 
millions of Americans who have lost someone, we continue to 
mourn.
    In this time of crisis, we have seen time and time again 
that everyday heroes simply live among us and from every part 
of our communities. Frontline healthcare providers working 
around the clock to treat our families, first responders, 
grocery store workers, essential employees, and delivery 
workers have all answered the call to ensure that all Americans 
can have access to vital services and goods during this period.
    We have seen outbreaks in meat-packing plants, COVID wards 
filled with healthcare workers and essential employees, and yet 
there is no infectious disease standard for these workers. My 
colleagues and I are committed to strengthening protections for 
these workers, and I was very pleased to join Chairman Scott 
and other Committee Members as an original co-sponsor of the 
COVID-19 Every Worker Protection Act.
    This bill strengthens OSHA protections by creating an 
Emergency Temporary Standard for frontline workers, while 
considering the constraints that have been placed on employers 
during this crisis. However, this legislation is not necessary 
for OSHA to act.
    Ms. Sweatt, my question is for you. As you know, the 
following H1N1 pandemic, OSHA began work in earnest on 
infectious disease standards. Yet 3-1/2 years into this 
administration and 100,000 American deaths into this pandemic, 
please explain why the OSHA infectious disease standard is 
still languishing on the long-term regulatory agenda.
    Ms. Sweatt. What I can explain is that OSHA has prioritized 
the protection of healthcare workers. We did that very early 
on, if you look at the guidance and the information that we 
sent out. We are very concerned about access to respirators for 
these individuals, and we issued no less than five enforcement 
guidance documents to ensure that our frontline healthcare 
workers were given the best access to respirators that they 
could have. And I would note that it languished on the 
regulatory agenda of the previous administration for 8 years.
    Mrs. McBath. Now, if the permanent standard had been put 
into effect, would it have provided OSHA with additional tools 
to deal with the pandemic?
    Ms. Sweatt. OSHA is using its existing tools to address the 
concerns that are related to healthcare workers and all workers 
with this pandemic.
    Mrs. McBath. But does OSHA intend to resume work on this 
standard, on the standards that you are talking about?
    Ms. Sweatt. I think we are getting very close to this is in 
litigation, and I really cannot comment further.
    Mrs. McBath. All right. So then, basically, I see that you 
are still moving forward full steam ahead with OSHA'S tree care 
standard. Is that really a good way to be spending your time 
during this unprecedented crisis?
    Ms. Sweatt. Our folks were able to multitask, and we were 
able to complete that standard. Tree care work is very 
dangerous work, and it is an important standard for us to 
address. That has been languishing on the regulatory agenda for 
20 years.
    Mrs. McBath. Well, it is apparent that you would have more 
resources if you had not cut OSHA'S standards by 10 percent in 
2017. So given the crisis, would you consider a significant 
increase in OSHA's regulatory budget helpful to you?
    Ms. Sweatt. I think that this Congress has increased our 
budget, and we will use those dollars wisely.
    Mrs. McBath. I will ask a question. When is your next plan 
of action for that standard? And when do you expect to have a 
proposed rule? Can you give us a date or a month or a time?
    Ms. Sweatt. I am sorry, for which standard?
    Mrs. McBath. For the proposed standards that you are 
already using.
    Ms. Sweatt. The regulatory agenda, it speaks for itself.
    Mrs. McBath. Okay. Thank you. I have no further questions.
    Chairwoman Adams. [Presiding.] Thank you very much.
    I am going to yield now to the gentlelady from North 
Carolina, Ranking Member of Education and Labor.
    Dr. Foxx, you are recognized.
    Ms. Foxx. Thank you, Madam Chairwoman. I want to thank our 
witnesses for being here today.
    Ms. Sweatt, it is very nice to see you again. Dr. Howard, 
very nice to see you all again.
    Ms. Sweatt, on March 5, 2020, 6 days before the World 
Health Organization classified COVID-19 as a pandemic, 
Committee Democrats sent a letter to Secretary of Labor Scalia 
demanding that OSHA immediately issue an Emergency Temporary 
Standard for COVID-19. Since March 5, a great deal has changed 
in both the scientific understanding of COVID-19 and the 
application of appropriate and effective safety protocols in 
combating workplace exposure to the coronavirus.
    Can you explain further the rationale behind the detail 
workplace safety guidance OSHA has issued to date and whether 
this approach has been effective?
    Ms. Sweatt. I do believe that this approach has been 
effective. We started with our general industry guidance. We 
provided as much information as we had available. And we have 
since brought on more industry-specific guidance. We have 
manufacturing, construction, meat processing. It has been a way 
for us to, as we learn more about the virus and spread, for us 
to really dig into the specific places and put out better 
guidance for employers.
    And then we have also managed to take these guidance 
documents and break them into usable pieces for workers. And we 
have translated almost everything that we have into Spanish. 
And some of our materials is in about 12 other languages.
    Ms. Foxx. Thank you. Ms. Sweatt, Committee Democrats and 
their union allies have been circulating an untruthful talking 
point, which has been echoed in various media outlets, 
including The Washington Post, that OSHA has been, quote, 
``missing in action,'' end quote, when it comes to protecting 
workers from COVID-19.
    Do you believe the administration's critics and their media 
allies undermine workplace safety when they misleadingly claim 
that OSHA is neglecting its responsibilities, that employers 
are willfully ignoring safety in their workplaces and that 
workers have few, if any, protections under the law?
    Ms. Sweatt. Dr. Foxx, thank you very much for highlighting 
this. I felt so strongly about the accusations that I wrote a 
letter to The Washington Post refuting those assertions, and 
they printed it. I am happy to provide that for the record.
    Ms. Foxx. I think it would be useful if we put that into 
the record.
    I want to add to that one of our colleagues earlier said 
that the absence of the rules that the Democrats want means 
that there is nobody out there protecting the health and safety 
of workers.
    It is an abysmal misunderstanding of how the private 
workplace operates, and that is that every employer wants his 
or her workers kept safe. They are their most valuable assets. 
And we hear that accusation over and over and over on this 
Committee. And, again, it is very clear that they have no 
concept of what happens in the private working sector.
    Dr. Howard, since the beginning of the COVID-19 pandemic, 
NIOSH and the CDC have constantly updated their guidance as the 
outbreak has developed and as more is learned about the 
coronavirus. What process does NIOSH use to update or change 
its recommendations? And what factors does the agency take into 
account on considering updates to its guidance?
    Dr. Howard. Well, thank you very much for that question. 
You know, there is a lot of our guidance, both NIOSH guidance 
as well as CDC guidance, coming from our emergency operations 
center. In fact, if I printed it all out, there would be a 
stack very high here. And the primary drivers for guidance are 
stakeholder need, perceived issues related to the virus itself, 
and what we are seeing as the situation evolves. So it is a 
very responsive-type process to what is happening on the 
ground.
    So I would sum up by saying that it is probably the most 
responsive guidance machinery that I have ever seen at CDC.
    Ms. Foxx. Well, thank you very much. And thank you for what 
you are doing, what you and your colleagues are doing, because 
we know you are focused on the health and safety of American 
workers.
    And, Ms. Sweatt, I appreciate you emphasizing that in your 
first comment. I have another question for you. On April 8, 
OSHA issued a statement reminding employers that it is illegal 
to retaliate against workers because they report unsafe and 
unhealthful working conditions during the coronavirus pandemic. 
What protections do workers have under the OSHA Act against 
unlawful retaliation? And how is the agency responding to 
whistleblower complaints during the pandemic?
    Ms. Sweatt. Thank you, Dr. Foxx. This is very important 
work at the agency. And we have 23 whistleblower statutes that 
we are in charge of. What we see with the COVID-19 is mostly 
11(c), which is in the Occupational Safety and Health Act.
    What I would like to say is that the agency and its 
whistleblower investigators have already achieved reinstatement 
of workers, they have seen letters of reprimand removed. Just 
based on a phone call as we initiate the investigation -- and 
in fact we have reports of businesses understanding and 
changing their structure so that they are not retaliating and 
that they are encouraging the reporting of safety and health 
concerns.
    Ms. Foxx. Thank you very much.
    Ms. Sweatt. Thank you, Dr. Foxx.
    Chairwoman Adams. Thank you very much, Dr. Foxx.
    I want to recognize now Ms. Jayapal.
    Ms. Jayapal, unmute.
    Ms. Jayapal. Thank you very much, Madam Chair. I hope you 
can hear me okay, and I very much appreciate this hearing. I 
think this is a very important hearing, and I appreciate the 
witnesses.
    We are in an unprecedented time. We have lost over 100,000 
American lives. That is almost more than we lost during the 
Vietnam -- during World War I, and it is more than all of the 
worst combined since World War II. So I think what we are 
talking about is something extremely unprecedented that 
requires our complete attention and devotion.
    What happens when an agency fails the people it is supposed 
to protect? People suffer and people die. People like Tyson 
Fresh Meats beef-packaging worker, Guadalupe Olivera, who loved 
to travel to national parks with his wife; Amazon warehouse 
worker, Harry Sentoso, who died on his 27th wedding 
anniversary; 28-year-old mental health counselor, James 
Simpson, whose own experiences in foster care led him to work 
as a counselor for troubled teens; and transit worker and 
father of three, Scott Ryan, who coached his kids in baseball 
and wrestling. These workers lost their lives to COVID-19 after 
faithfully serving their communities during this pandemic. The 
loss of these workers' lives is an incredible tragedy and a 
preventable one.
    OSHA is a division of the U.S. Department of Labor and is 
charged with that important responsibility of protecting 
workers. And I am glad to have a representative of OSHA here 
today to better understand what you have been doing to protect 
workers during this pandemic.
    So, Ms. Sweatt, as the Principal Deputy Assistant Secretary 
of OSHA, how many workers in the United States have contracted 
COVID-19 in the workplace?
    Ms. Sweatt. We have -- we have reports of worker injury 
related to COVID-19. And what we do instead have -- and better 
statistics -- are the fact that we have 5,000 COVID complaints 
right now. And our agency is working expediously -- 
expeditiously, excuse me, to close those complaints and figure 
out how to provide employers and workers the best information 
available to protect themselves.
    Ms. Jayapal. So, Ms. Sweatt, are you saying that OSHA, 
which is the agency charged with protecting workers, is not 
tracking COVID-19 infections in the workplace? I mean, the 
U.K., for example, has been carefully tracking COVID-19-related 
deaths by occupation. Are you not tracking this? Are you 
incapable of tracking COVID-19 infections in the workplace 
separate from the complaints?
    Ms. Sweatt. I would -- I could go into a description of 
recordkeeping and the employer's responsibility under 
recordkeeping, but I think Dr. Howard might be the best person 
to talk about the way that COVID-19 is tracked.
    Dr. Howard. Thank you, Loren.
    Yes, at CDC, as I mentioned in my testimony, we have been 
getting better at tracking occupation and industry for COVID-19 
cases. We have a new case report form that we are hoping that 
the States will start using, we asked them to start using it on 
the 15th of May, in which there are specific fields that can be 
filled out that delineate what the occupation and industry of 
that worker is.
    We have done more in the area of surveillance for 
healthcare worker occupation, and we are beginning to do that 
for meat, poultry, and chicken processing workers also.
    We have received funding from the Congress recently to 
modernize data collection at CDC for these types of things. And 
I am happy to go into more detail on that.
    Ms. Jayapal. Thank you, Mr. Howard. I guess, you know, what 
I would say is May 15 is pretty late for beginning to track 
deaths and occupational deaths and cases.
    Let me go back to Ms. Sweatt. Isn't it true that OSHA 
revised its previous enforcement policy for recording cases of 
coronavirus stating that under OSHA's recordkeeping 
requirements, coronavirus is a recordable illness and employers 
are responsible for recording cases of coronavirus? And, also, 
isn't it true that OSHA only revised this data collection 
policy on incidents of COVID-19 in the workplace on May 19, 
more than 2 months after President Trump declared a state of 
emergency?
    Ms. Sweatt. So our first recordkeeping guidance or 
enforcement document really wanted to have folks -- sorry for 
the feedback -- focus on healthcare workers and for other 
employers to look at hygiene practices. And so there was never 
a recission, if you will, of a requirement to put recordkeeping 
and COVID-related recordkeeping on their logs.
    As America looks to reopen, we issued a new guidance 
document that reemphasizes the employer's obligation to examine 
COVID-19 work-relatedness and put that on their OSHA logs.
    Chairwoman Adams. Thank you very much. Your time is up. 
Thank you.
    Ms. Jayapal. Thank you, Madam Chair. I yield back.
    Chairwoman Adams. Thank you, Ms. Jayapal.
    Let me now recognize the gentleman from North Carolina, Mr. 
Walker.
    Mr. Walker. Thank you, Madam Chair.
    There has been a lot of discussion today from my colleagues 
across the aisle pointing to an Emergency Temporary Standard as 
being the only solution to guarantee workplace protections, 
which completely overlooks the significant burden that would be 
placed on small businesses that are already struggling, as most 
of the country can see.
    Small businesses in my district and across America have 
been shattered due to the extended closures because of COVID-
19. I speak to small businesses literally every day who are 
hanging or trying to hang in there to make tough decisions just 
to keep their doors open. Imposing restrictive and duplicative 
regulations would simply create additional barriers.
    My question, Ms. Sweatt, if I could start with you, you 
mention in your testimony that important work OSHA -- the 
important work OSHA is doing in conjunction with the CDC to 
issue industry-specific guidance to ensure worker safety. Just 
yesterday when I was looking through the CDC website, I was 
very encouraged to find detailed guidance for various 
industries ranging from the retail to the airline industry.
    Can you expand on why it is important to issue guidance 
tailored to address the unique challenges of each industry as 
opposed to a one-size-fits-all regulation covering all 
industry?
    Ms. Sweatt. Thank you, Congressman. Yes, I think it is very 
important that we are able to take our general industry 
guidance and then put it into the specific industries because 
they are different. Construction can be outside and inside. 
Manufacturing is mostly inside. So there is a variety of social 
distancing issues that folks face.
    And if I can comment briefly on the small business aspect 
of your question. We have an onsite consultation program that 
is available in all 50 States for small businesses to find a 
person who can help them implement safety and health. And there 
is a firewall between the OSHA enforcement side of the house. 
And we have seen dramatic improvement and results from small 
businesses utilizing our onsite consultation program.
    Mr. Walker. And using the right title, Dr. Howard, if I 
could ask you something. How often does the CDC and OSHA 
receive new data on COVID-19, given the constantly changing 
information? So hold that one question.
    Let me say the second part is, what is the likelihood that 
a regulation published as soon as tomorrow would be applicable 
or relevant even 4 to 6 weeks from now?
    Dr. Howard. Well, regarding the first question, you know, 
as I said, this is a highly evolving situation, and we get new 
data every day, not only from -- from the surveillance system 
that we have in place and the ones that we are developing, but 
also from a number of these industries that you are talking 
about. I can't speak to the issue of regulation because CDC 
does not do regulation.
    Mr. Walker. Yeah, I want to swing that part of it back over 
to Ms. Sweatt. Do you have anything to weigh in on the 
question?
    Ms. Sweatt. I just would agree with Dr. Howard that this is 
rapidly evolving, and our folks are tracking this. They are 
working 24/7 to provide the best information available.
    Mr. Walker. Under the OSHA Act, once an ETS has been 
issued, it must be replaced with a permanent standard. I 
believe the timeline is within 6 months, using the customary 
rulemaking process, which includes gathering stakeholder input 
through public comment as well as hearings.
    Ms. Sweatt, can you tell me what is the average amount of 
time it takes to gather the necessary data and evidence to 
publish a permanent standard?
    Ms. Sweatt. According to a GAO report, OSHA takes 8 to 15 
years to promulgate a new standard.
    Mr. Walker. So would you say that an abbreviated rulemaking 
process would require additional resources that could be used 
to enforce existing guidelines to protect workers in order to 
publish the rule within a 6-month timeframe?
    Ms. Sweatt. I do think that we are working around the clock 
to provide the information available, to make information 
available and work towards protecting workers. And the other 
piece of the rulemaking issue is we do find that it is very 
important to get the most robust comments during our rulemaking 
process.
    Mr. Walker. Well, I think it is clear for all of us that 
this is still a learning process. We want to be diligent. But I 
would hope that we can all agree that OSHA and the CDC 
resources are best spent on assisting American workers and 
businesses, maintaining safe workplaces, rather than complying 
with more bureaucratic demands.
    With that, I yield back, Madam Chair.
    Chairwoman Adams. Thank you, Mr. Walker.
    Let me yield to the gentlelady from Pennsylvania, Ms. Wild.
    Ms. Wild. Thank you, Madam Chair.
    I would like to address some comments by my colleague 
across the aisle, Mr. Byrne. The problem with silencing 
witnesses on issues before this and other Committees is that we 
seem to be mired in lawsuits brought by both sides of the 
aisle, which could basically bring a halt to the very important 
work done by these Committees.
    Also, it is usually on advice of counsel that a witness is 
instructed not to speak on a matter in litigation. This process 
just allows an administration witness to pick and choose which 
question she is willing to answer.
    I would further like to comment on Mr. Byrne's remarks. 
H1N1 killed fewer than 13,000 people in a year. COVID has 
killed 100,000 in 4 months. To say that we should not have a 
standard on the basis of H1N1 is also a false comparator.
    With that, Dr. Howard, I have a question for you. A large 
survey by the American Nurses Association indicates that where 
facilities are reusing and decontaminating respirators, 54 
percent of nurses believe it is unsafe to use a decontaminated 
respirator N95 mask. A different survey by the National Nurses 
United found that a quarter, 25 percent of respondents had to 
reuse a so-called decontaminated respirator with confirmed 
COVID-19 patients.
    Is there solid evidence that decontaminated N95 respirator 
masks are safe for healthcare workers to use? And are 
decontaminated respirator masks as protective as new ones in 
preventing infection?
    Dr. Howard. Thank you for that fair question. I am aware of 
those surveys and I understand that being a healthcare worker 
myself. I think one of the issues that I would like to 
emphasize at the get-go is that decontamination of an N95 
respirator is not the first step in optimizing the use of 
respirators for healthcare workers. It is literally the last 
step. Every other type of respirator that we recommend in 
healthcare, a PAPR, an elastomeric, et cetera, be used before 
you decide to decontaminate your supply of N95s.
    The science about decontamination is relatively new, and I 
mean, very new. Manufacturers would take exception to the idea 
of decontaminating an N95. What we recommend in terms of a 
hospital that is planning to do this is to check with the 
manufacturer. There are over 500 models of the N95, and each of 
them are constructed a little differently, out of different 
material, and they have different configurations. And it is 
important that you identify with the manufacturer what do you 
think is going to happen to this particular model that we are 
using if we use vapors, hydrogen peroxide as a decontamination 
method?
    So, again, it is the last step in the hierarchy of 
controls. PPE is always the last step, and amongst PPE 
optimization procedures, it is literally the last step.
    So take it very carefully, check with the manufacturer, and 
check with the companies that are planning to decontaminate 
your respirator. Have they done testing? One, does the 
respirator survive the elastic bands, et cetera? And two, does 
it kill the virus?
    Ms. Wild. Thank you very much for that very complete 
answer. You have answered my other questions that I was going 
to ask you.
    Ms. Sweatt, in your March 19 letter to Chairman Scott and 
Representative Adams, you stated that an Emergency Temporary 
Standard is not needed to protect healthcare workers or other 
workers because the healthcare industry fully understands the 
gravity of the situation and is taking the appropriate steps to 
protect its workers. But we know that close to 62,000 
healthcare workers have been infected with COVID-19, and 291 
are dead as of last count.
    I suspect that some hospitals are safer than others -- 
would you agree with me on that -- for workers?
    Ms. Sweatt. I don't have an opinion one way or the other on 
that.
    Ms. Wild. Okay. You need to turn on your mike. But you 
don't have an opinion one way or the other.
    I know that we have two excellent healthcare institutions 
in my Pennsylvania district that have taken worker safety very, 
very seriously. On the other hand, we have another hospital 
where employees have reached out to me with deep concerns about 
their lack of PPE, the need to reuse surgical masks, paper 
masks -- like the one I am wearing now -- over and over again. 
Wouldn't an OSHA standard ensure that all of our healthcare 
workers be kept safe while caring for the rest of us?
    Ms. Sweatt. Well, I think if you are talking about 
respirators, respiratory protection is already required. And so 
it really becomes access to respirators.
    And I think Dr. Howard could talk to some of the things 
that they are doing related to respiratory protection. But what 
we did early on was address the need to slow the burn rate. One 
of the requirements in our respirator standard is an annual fit 
test. We ensure that the fit test could occur while still 
protecting workers and not destroying the respirator, which is 
what the annual fit test would require otherwise.
    And so we have been very concerned about that since day 
one. And we have issued five guidance documents related to 
respirators and their use in order to --
    Ms. Wild. Excuse me. I would note that this is not 
responsive to the question I asked. But with that, we are out 
of time. Thank you.
    Chairwoman Adams. Thank you. Thank you, Ms. Wild.
    The gentleman from Virginia, Mr. Cline, you are recognized.
    Mr. Cline. Thank you, Madam Chair. I thank the witnesses 
for being here today.
    Dr. Howard, you mentioned that at NIOSH, you have 
significantly increased work hours in order to more than triple 
the rate of respirator approval and denial decisions from 30 to 
over 100 decisions per month. That is a significant increase. 
And I appreciate the steps you are taking to expand your 
workload during this time.
    And, Ms. Sweatt, thank you for outlining how OSHA has been 
responding to this virus and how frequently you are issuing 
guidance. It is imperative during a time like this that OSHA is 
able to remain responsive to the new discoveries through the 
ability to revise guidance. It is clear that OSHA is working 
hard to ensure employees are protected and that their guidance 
is accessible through things like COVID-19 Tip of the Day and a 
top 10 list of the actions employers and workers can take to 
prevent COVID-19 infection.
    I would ask, Ms. Sweatt, back on April 16, OSHA issued an 
interim enforcement policy advising the agency's compliance, 
safety, and health officers to evaluate an employer's good-
faith efforts to comply with safety and health standards during 
the coronavirus pandemic. Can you elaborate on this policy, 
including what kinds of factors OSHA will consider when 
evaluating an employer's efforts and how employers should 
document these efforts to comply?
    Ms. Sweatt. Yes. Thank you very much for the question. And 
that was really focused on a lot of the medical removal issues 
and medical requirements and our existing standards. And a lot 
of the people who are providing these services to workers were 
no longer able to do that because of shelter-in-place issues. 
And so spirometry, iodometry, those things were not going to be 
available to the employer.
    So as they look to reopen and they look to reschedule that, 
if and when an OSHA inspector comes on site, they need to 
explain what their plan is going forward to catch up on the 
requirements that they have to protect their workers under 
these standards.
    Mr. Cline. As OSHA continues to revise its guidance based 
on the newest information surrounding the coronavirus, how are 
you working to inform businesses about these changes? And 
moving forward, will OSHA consider industry-specific webinars 
and offer opportunities for industry to ask direct questions?
    Ms. Sweatt. Thank you very much for the question. We have 
had a very active engagement with the unions and with 
stakeholders. Our folks have done a variety of webinars. Our 
compliance assistance individuals talk about almost 4,000 
outreach activities that they have already done in the last 2 
or 3 months. So we are actively engaged on all fronts of what 
the agency does. And as we continue our work through the summer 
and into the fall, our folks will be available, and we will 
give the best information that we can.
    I think one of the most important things that we can see 
immediately is the dramatic increase to the number of people 
who have visited our website to look at our guidance documents. 
And so I think people are really, truly looking for answers.
    Mr. Cline. Thank you.
    Dr. Howard, the FDA issued an emergency use authorization 
permitting the use of certain respirators certified under other 
-- under other country's safety standards during the pandemic. 
How is NIOSH working with the FDA to ensure the efficacy of 
these respirators?
    Dr. Howard. Thank you for that question. NIOSH works very 
closely with the center at FDA that is responsible for 
approving respirators. And we look with FDA to the standards 
that particular manufacturer in that country are using. There 
are some international standards that the EU has, for instance, 
that many Chinese manufacturers use. So we work with FDA to 
figure out which of the -- KN95s, they are called, coming from 
China, for instance, meet the international standards. And then 
they are included on the FDA's EUA.
    Mr. Cline. And you mentioned this earlier, but you had the 
opportunity to expand on it a little bit, beyond the issuance 
of formal guidance, what additional resources has NIOSH created 
for employers and workers to educate themselves about how to 
prevent COVID-19 in the workplace?
    Dr. Howard. Well, one of the things that we do, we do field 
technical assistance visits with other centers at CDC. As I 
mentioned, we have done 34 sites for beef, pork, and chicken 
processing. And we have had excellent cooperation from the 
plant operators and from the companies involved, even though 
they are dealing with a very difficult situation.
    As you know, a meat-processing plant is a very labor-
intensive workplace. And our recommendations are fundamental on 
the issue of keeping people apart. That is extremely difficult 
to do in a very labor-intensive operation like meat processing.
    So those field investigations have been educational for us 
and they have been educational also for the plant operator and 
the companies.
    Mr. Cline. Thank you.
    Chairwoman Adams. Thank you very much.
    I want to now recognize the gentlelady from Michigan.
    Ms. Stevens, you are recognized.
    Ms. Stevens. Thank you, Madam Chair. And I join my 
colleagues in mourning the staggering loss of 100,000 Americans 
to this wretched disease.
    Ms. Sweatt, it is known that you oversee an agency with a 
budget of $552 million, is that correct, and you oversee about 
2,300 employees?
    Ms. Sweatt. About 2,000, yes, ma'am.
    Ms. Stevens. Okay, great. And are you currently working 
from home?
    Ms. Sweatt. No.
    Ms. Stevens. You are going in every day. And how many -- I 
guess, how many calls or meetings do you take a day? I have to 
imagine it is quite a few.
    Ms. Sweatt. Yes.
    Ms. Stevens. And are most of them just meetings that have 
been scheduled? Are they kind of reactive meetings? Are there 
specific calls or, you know, outreach that you are doing that 
is sort of unprompted?
    Ms. Sweatt. I think my schedule is a combination of 
activities related to -- we have a weekly meeting with all of 
our senior staff and regional administrators. I meet weekly 
with the directorate heads, as we are able to do that.
    Ms. Stevens. Have you spoken to any essential workers? Have 
you picked up the phone and called any or -- any employers that 
are deemed essential during your time?
    I know as a Member of Congress, that it was sort of 
unprompted, but the first call I made when this pandemic was 
declared was to our grocery stores, because I just thought, 
holy smokes, you are now all of a sudden an essential service, 
just almost overnight, how are you getting prepared. Have you 
made any calls like that?
    Ms. Sweatt. Yes. We have had calls with the unions. We have 
had calls with stakeholders. We have performed webinars. I have 
personally done these things myself, as has the staff. And, you 
know, we continue our --
    Ms. Stevens. You have an outreach office, right? You do, 
you have an external affairs outreach office?
    Ms. Sweatt. Well, we have a communications office, but we 
also have a directorate of compliance and State programs. We 
have had every other week --
    Ms. Stevens. I would invite you anytime, ma'am, excuse me, 
I would just invite you anytime to call the incredible grocers 
in Michigan. We -- and nursing homes for that matter. I mean, 
these hardworking individuals, every single day, I know they 
would absolutely welcome a phone call from you at anytime.
    And, Dr. Howard, thank you so much for your expertise and 
your testimony today. I think last month, you might have seen I 
introduced legislation to create an inner agency task force 
that would bring together experts from across our government to 
establish the scientifically-based guidance and recommendations 
to our industries, right? And I heard you in one of the 
previous responses that you -- you see the CDC changing almost 
on a weekly basis.
    How is that being communicated? And how are you with NIOSH 
working on an inner agency basis to communicate these changing 
science-based facts that are coming out of our coronavirus?
    Dr. Howard. Well, our chief method of communication is 
obviously through the CDC website on coronavirus. The 
interaction with other Federal agencies are chiefly OSHA. The 
Department of Agriculture, which we have had a much closer 
relationship with lately in the Food Safety Inspection Service, 
FSIS, as well as the Department of Transportation on airline, 
the FAA, for instance.
    So wherever the particular workplace or industry is, we 
tend to reach out to that particular Federal agencies that are 
often regulators, that are responsible in that area, the 
stakeholders, the unions involved, and the employer 
associations that service that industry.
    Ms. Stevens. Great. Thank you, Dr. Howard.
    And, Ms. Sweatt, Michigan has been pretty hard hit, and 
particularly in our nursing homes, by this coronavirus 
pandemic. I have heard complaints, as you were citing, from 
businesses in my district that have found OSHA's guidance 
sometimes confusing and vague.
    So, for example, on page 10 -- and I read this report 
several times on the guidance on preparing workplaces for 
COVID-19. On page 10, you state that employers should provide a 
face mask, if feasible and available, and ask a person to wear 
it, if tolerated.
    Why did OSHA issue guidance like this? And why not just 
clearly state that masks can prevent the spread of COVID-19 
when they are worn by workers?
    Ms. Sweatt. I would point out that this was written in 
early March, and so the issue involving the thought process 
around face masks may have changed. But I do think that Dr. 
Howard can give you the more scientific issues around the use 
of face masks. Our concern here is often around respiratory 
protection and the use of respirators.
    Ms. Stevens. With that, I am out of time, but we thank our 
Committee Chair for holding today's hearing. And we will follow 
up on questions for the record.
    Chairwoman Adams. Thank you, Ms. Stevens. Thank you, Ms. 
Sweatt.
    I am going to recognize myself now for my questions. I did 
have to leave to go vote.
    Ms. Sweatt, do you think that COVID-19 presents a grave 
danger to workers?
    Ms. Sweatt. I think that you are asking questions around 
the Emergency Temporary Standard, and I can't answer that.
    Chairwoman Adams. Well, I am not -- I am simply asking, is 
COVID-19, in your opinion, does it present a grave danger to 
workers? Yes or no?
    Ms. Sweatt. I think that you are asking a question around 
the Emergency Temporary Standard.
    Chairwoman Adams. Oh, okay. You are not going to answer 
that. All right.
    Ms. Sweatt, at least 260 healthcare workers have already 
died of COVID-19. Tens of thousands have been infected. Is 
COVID-19 a grave danger to healthcare workers? Can you give me 
a yes or no?
    Ms. Sweatt. Madam Chair, what I will tell you is that OSHA 
has prioritized healthcare workers and identified the issue of 
respirators since the very beginning of this pandemic. As I 
have said before, we issued five guidance documents in an 
attempt to ensure that the burn rate on respirators did not 
impact these workers.
    Chairwoman Adams. Okay. But is it a grave danger, yes or 
no? You can't say yes or no --
    Ms. Sweatt. Madam Chair, I am not going to answer yes or no 
questions.
    Chairwoman Adams. All right. Let me move on. I don't want 
to use up my time like that.
    Dr. Howard, would you try to answer yes or no for me, 
please? Do you think that COVID-19 presents a grave danger to 
workers?
    Dr. Howard. Yes, I do.
    Chairwoman Adams. All right. Let me ask you, Dr. Howard. 
Let's focus for a moment on the meat-packing workers. Is COVID-
19, in your opinion, a grave danger for meat-packing workers?
    Dr. Howard. Yes, I do.
    Chairwoman Adams. What about healthcare workers?
    Dr. Howard. Yes, I do.
    Chairwoman Adams. All right. Ms. Sweatt, can you answer me 
honestly, if you were a worker in a meat-processing plant or a 
nursing home, would you feel safer knowing that there was an 
enforceable OSHA standard and the agency stood ready to issue 
citations if safe working standards were being violated? Or 
would you feel safer knowing only that your employer just had 
to make a good-faith effort to comply with voluntary guidance?
    Ms. Sweatt. What I can tell you is that the agency has 
focused on the meat-processing industry. We have over 58 
complaints or inspections active currently. And we have had 
daily phone calls with FSIS and Dr. Howard's office to address 
the concerns around meat packing and --
    Chairwoman Adams. Okay, ma'am. I just want to know, if you 
were a worker, would you feel safer knowing that there was an 
enforceable standard, OSHA standard, and that the agency stood 
prepared to issue citations if safe working standards were 
being violated? Or would you feel safer knowing that the only 
thing your employer had to do was just to make a good-faith 
effort? Can you give me a yes or no?
    Ms. Sweatt. I think that I am going to tell you that the 
agency is doing everything it can related to this specific 
industry to provide the best available information.
    Chairwoman Adams. Yes, ma'am. Let me move on.
    So, Ms. Sweatt, despite voluntary OSHA and CDC guidance and 
the Presidential executive orders, conditions in meat plants 
are getting worse. Now, you can say yes or no to that, but we 
have got all of the data, comes on TV. Every day we see that 
people are not only coming down with the disease but that they 
are dying in these plants.
    And over the past month, according to The Washington Post, 
the number of infections tied to three of the country's biggest 
meat processors -- Tyson Foods, Smithfield, and JBS -- have 
gone from just over 3,000 to more than 11,000. Worker deaths 
have tripled, surging from 17 to at least 63.
    Now, given those numbers, would you say that your current 
strategy to ensure the safety of meat-processing workers is 
working?
    Ms. Sweatt. I have to be very careful here because we do 
have open inspections and investigations in meat-packing 
facilities. So I think to answer your previous question at this 
time --
    Chairwoman Adams. No, I don't want you to answer the 
previous question. Okay. That one, you can't give me a yes or 
no?
    Ms. Sweatt. The answer is we stand ready if we find 
violations in our enforcement investigations --
    Chairwoman Adams. Thank you, ma'am. I have got 50 seconds.
    If the only way to accomplish social distancing in meat 
processing is to slow down the production lines, will OSHA be 
willing to order the plants to do so? Would you order the 
plants to do so?
    Ms. Sweatt. Line speed is not within the jurisdiction of 
the agency, but what they can do is in our guidance.
    Chairwoman Adams. Okay. That is fine. No, you wouldn't do 
it. Okay.
    And how many meat or poultry process plants has OSHA done a 
physical inspection? How many physical inspections have you 
done?
    Ms. Sweatt. Within the last week, I believe it is 10.
    Chairwoman Adams. How many of those have been closed with 
no citations?
    Ms. Sweatt. I believe most of those are still pending. We 
have 6 months to complete our inspection.
    Chairwoman Adams. Okay. Dr. Howard, let me ask you. You 
said that -- your testimony discussed the inspections of 34 
meat-packing facilities in 12 states. Given the difficulty of 
redesigning meat-packing facilities, would it be far more 
effective to keep the virus out of the plant by requiring 
regular testing of workers for COVID-19?
    Dr. Howard. Well, this is -- testing is a complex issue, 
and right now, CDC doesn't have the establishment-wide guidance 
to give an employer who is interested in doing testing.
    Now, we are thinking about that. We have a lot of 
information that we are putting together, and we may be coming 
out with more guidance on that issue. But right now, we don't 
have enough information to recommend establishment-wide. Now, 
those are asymptomatic workers --
    Chairwoman Adams. My time is up, sir. I apologize. My time 
is up. I am going to have to now yield. Thank you, sir.
    Mr. Guthrie of Kentucky, you are recognized, sir.
    Mr. Guthrie. Thank you. I thank the Chair for the 
recognition. I appreciate it. Thanks again for being here 
today.
    And my colleague from Michigan, Ms. Stevens, kind of talked 
about masks, and you said that was early in March. Things have 
changed. And I am on Energy and Commerce, Health, so we are -- 
and O&I, so we are following this, the information.
    So businesses out there are trying to make -- they want 
their workers to be healthy and safe. They want to be. So as 
things change, how is OSHA being proactive in making sure 
businesses know these changes, and how does proactive business 
-- what is the best way -- if I am a businessperson in Bowling 
Green, Kentucky, trying to run a factory, what is the best way 
for me to know the best practices as these change every day, 
the updates?
    Ms. Sweatt. Well, we can update our website very quickly, 
obviously. So as our documents go up, we put them out on the 
website. We push them out in as many social media platforms as 
we have available. And we have seen a dramatic increase in the 
traffic to our website, in addition to our newsletters. So we 
think employers and workers are seeking the best information 
possible.
    A lot of our website also links to our Federal partners, 
NIOSH and CDC. They also have an abundance of guidance based on 
what they are finding scientifically and medically. So we are 
working as quickly as possible to provide the best information 
to everyone.
    Mr. Guthrie. Okay, thank you.
    And then, Dr. Howard, I know the FDA -- because I have 
oversight on FDA, my other Committee assignment, and did the 
emergency use order for the certain respirators that are 
certified in other countries for use. So how is your 
organization, NIOSH, working with FDA to ensure these are safe 
-- their efficacy is there and they are eligible to be used?
    Dr. Howard. Well, thank you for that question. As I 
mentioned, you know, we work very closely with FDA on these 
emergency use authorizations that they publish. So our 
laboratory looks at the fit of the respirator and the 
filtration capability of the respirator. Those are the two main 
attributes of a respirator that we are -- think are very 
important.
    A lot of these international respirators are made 
internationally. And China, for instance, use ear loops. That 
doesn't give you the best fit, for instance. We have to look at 
both the filtration efficiency. And we have tested some of 
those respirators. They don't come to the 95 percent of 
filtration efficiency that an N95 is.
    So we work with FDA. We get -- States, for instance, are 
buying respirators from China. They send it to us for 
evaluation. We perform the evaluation and give them the 
results. We also share that with FDA. The FDA decides what 
models they are going to put on their EUA based on our testing.
    Mr. Guthrie. So you are saying the ear loops like this and 
the rest of us --
    Dr. Howard. The ear loops versus the ties behind the head. 
The two big issues for protecting the lungs from atmosphere is 
the fit. How tight the fit is so you don't get any leakage. And 
that is hard with the ear loops, okay. You get less fit. And 
the other is the material itself that filters the particles. So 
filtering and fit, those are the two big things that we test 
for.
    Mr. Guthrie. Dr. Bucshon, who is a surgeon in another 
Committee, we were talking, he says, yeah, people because they 
are wearing the mask a lot, they can cough without having to 
corrupt. And the problem is it can run out the sides, and it is 
probably -- it creates a moral hazard sometimes. You have to be 
careful with that.
    So let me ask another question. I know that sometimes you 
get conflicting information, businesses do and employers do. 
And not in this, specifically. I don't have any examples. But I 
know there are other areas that if you comply with one agency, 
you are violating another agency. I have seen that before.
    So, Ms. Sweatt and Dr. Howard, as more business are 
reopening -- and I have heard from employers in Kentucky on how 
critical to ensure the workplace safety guidance is consistent 
across the Federal Government and that agencies are not 
providing conflicting information -- can you both elaborate on 
how you work together and coordinate the public health agencies 
during the pandemic?
    Dr. Howard. Well, I will take it first. We work very 
closely with OSHA to make sure that does not happen. That is 
the worst outcome that we as one government can make is to have 
conflicting information.
    So any information that involves the workplace, we run by 
OSHA for their comments.
    Mr. Guthrie. Okay.
    Ms. Sweatt. I would say we have an excellent working 
relationship with our Federal partners, especially at NIOSH and 
CDC. I know our folks are on the phone with Dr. Howard's folks 
all the time. But I do believe that in the response to this 
pandemic, you have seen an all-of-government process here. And 
so anything that we put out has also been vetted to make sure 
that we are not in opposition with any of our other Federal 
partners.
    Mr. Guthrie. Thank you. And I appreciate the hard work you 
guys are doing. And I know we are all concerned, both sides, 
that people show up in a place where they can be safe and to 
work. And I know you are trying to put that out in an ever-
changing environment. I know businesses are trying to figure 
out how to do it in an ever-changing environment. And we all 
need to work together and pull together to make this work. And 
thank you for your efforts. I appreciate it very much.
    I yield back.
    Chairwoman Adams. Thank you, Mr. Guthrie.
    Let me recognize the gentleman from Connecticut.
    Mr. Courtney, you are recognized.
    Mr. Courtney. Thank you, Madam Chairwoman, for holding this 
hearing today.
    This Saturday in New London, Connecticut, there is going to 
be a memorial service for Elva Graveline, who was a certified 
nurse's aide who worked at a local hospital there, 52 years 
old, mother of two, grandmother of three, who succumbed to 
COVID a couple of weeks ago.
    And, again, there were stories in the human face of people 
who really are the good guys. She was a caregiver who treated 
her job as a CNA as a calling, not as a job, 23 years, 
described as kindhearted. And, again, it just reinforces that 
this is not a theoretical academic issue. This is really about 
human beings who are doing right by all of us in terms of 
keeping this country going forward.
    I just wanted to just touch base with both witnesses about 
the fact that this is not the first pandemic that OSHA has 
encountered. The AIDS/HIV pandemic in the late -- mid eighties, 
late eighties, and early nineties, OSHA acted, and it acted 
very swiftly to put into place real standards in terms of 
bloodborne pathogens.
    My wife is a nurse practitioner. She worked at Bellevue 
back in the eighties there, and she still remembers the day 
where, again, you drew blood and used needles with no gloves. 
And there was no such thing as disposable needles.
    OSHA created, with the standard, an enforceable standard, 
the regime that we now just sort of take for granted when we go 
into hospitals. Was OSHA wrong to institute a standard versus 
just operating with guidelines?
    Ms. Sweatt. I believe OSHA followed the direction of this 
Committee through a statutory requirement to establish that 
standard.
    Mr. Courtney. Correct. I mean, it was a prodding from 
Congress that they actually moved. And again, it wasn't a 5- to 
20-year process. I mean, it happened in much swifter terms.
    And, again, Dr. Howard, did OSHA do the right thing by 
implementing a standard to deal with AIDS/HIV?
    Dr. Howard. I think so. And I would like to point out that 
they followed California's lead in that area.
    Mr. Courtney. So, again, when we talk about having a 
standard put into place, this is not some wild, unprecedented 
sort of notion. I mean, the fact of the matter is it is just 
part of the reality every day when people walk into doctors' 
offices or hospitals.
    Again, Dr. Howard, your description of how to safely 
disinfect N95 masks that you testified to earlier was, again, I 
think a learning experience for all of us about the fact that 
you have got to really actually do more than just throw it in 
the washing machine. You know, there is real issues that you 
got to do it the right way.
    Why wouldn't that sort of, you know, standard be really 
something that would help guide a lot of employers?
    And I will tell you, because this is relevant in 
Connecticut, which again has been very hard hit. Again, we have 
had tremendous, you know, donations from, you know, private 
individuals, as well as FEMA, in terms of getting masks, N95 
masks. But some of them, as you point out, are different. They 
are not all the same.
    So if you are a hospital or a nursing home trying to, you 
know, organize this, I mean, you need -- it sounds to me based 
on your testimony -- you know, more than just lumping them all 
together and disinfecting them in exactly the same fashion. So 
why wouldn't that be a good thing to have, you know, that more 
precise advice that you described out there so that employers 
really would know that you have got to do more than just treat 
them all the same?
    Dr. Howard. Well, I certainly think that the more 
specification that you can provide an employer, the more 
helpful it is to that singular workplace. The problem is we 
can't do guidance that is highly specific to each 
establishment. So we have to do fairly general guidance and 
then look at the application, help employers -- both NIOSH, 
CDC, and OSHA, through their consultation service -- apply 
those guidelines to their specific workplace.
    Mr. Courtney. But, again, having a standard, which just 
says you have got to look at the manufacturer's specifications 
when you are going to reuse, you know, N95 masks, that is just, 
like you pointed out, necessary to make sure that these workers 
when they reuse them are actually going to be protected.
    And, again, I would just say, you know, one of my wife's 
good friends back home is a nurse at a local hospital who has 
been intubating COVID patients with reused N95 masks. I mean, 
they were basically reusing them over a period of 7 days. You 
could not get in a more high-risk situation than intubating a 
patient as a worker. And, you know, that just shows how life 
and death -- you know, having real standards out there so that 
people like Dawn are going to be safe in terms of doing, you 
know, just amazing work in terms of saving lives.
    I yield back.
    Mr. Scott. [Presiding.] Thank you.
    Is the gentleman from Michigan prepared to ask questions?
    Mr. Levin. Yes.
    Mr. Scott. The gentleman from Michigan is recognized for 5 
minutes.
    Mr. Levin. Thank you, Mr. Chairman.
    Mr. Scott. Wait a minute. Excuse me, Andy. The other 
gentleman from Michigan, Mr. Walberg. I am sorry.
    Mr. Levin. Oh, okay, I am sorry.
    Hi, Tim.
    I yield to my esteemed colleague from Michigan, Mr. 
Walberg. Sorry.
    Mr. Walberg. Andy, it is good to see you. I hope you are 
well. I just wondered what that guy was spraying or looking at 
in your basement or whatever. So it has been interesting to 
watch.
    Mr. Levin. I will tell you later.
    Mr. Walberg. Okay.
    Thank you, Mr. Chairman, for holding this hearing. And I 
would concur that we ought to do this regularly, have live 
hearings where we are here in the room. It is the best way to 
get the work done. And I think by now we should be capable of 
handling this. Plus, we have a lot to consider.
    Loren, it is good to see you back.
    Ms. Sweatt. Thank you, sir.
    Mr. Walberg. It seems strange that you are not sitting 
behind me and telling me what to say and what to do when I 
chaired this Subcommittee for 6 years.
    Ms. Sweatt. I agree.
    Mr. Walberg. So you got me through well on that. And I am 
sure that you are giving it your best, best effort now where 
you are at. We appreciate that.
    Having been away for votes, I probably missed some 
questions I might have asked. But there were a few that I 
really wanted to ask you as well, and it goes back to guidance. 
And as we wrestle with that whole idea, I know during the time 
we worked together, on what rules need to be in place and what 
laws had to be in place, and how you could work in a system 
that mandated you be loose on your feet, as it were, to deal 
with situations that came up, whether it was in a mining 
situation or a manufacturing situation or now, of course, the 
hospital situations that are going on.
    Let me ask again why the agency believes it is better to 
issue guidance as opposed to a new regulation response to 
COVID-19 spread? And if you could also provide a real-world 
example of where your agency would have been delayed in this 
response if you had a hard-and-fast rule or law in place as 
opposed to guidance.
    Ms. Sweatt. Thank you, Mr. Walberg. And I appreciate the 
kind words, and I share the sentiment.
    But I think what we have seen over the last 3 months is, as 
I said, we are at 5,000 complaints related to COVID. And the 
agencies take in almost the same number of complaints that are 
in our, unfortunately, normal safety and health concerns.
    So with the way this virus has changed and our 
understanding of it, our guidance documents have been able to 
address what we know today. We issued construction guidance 
just on Monday. We have more coming out maybe even as I speak. 
And, you know, we have gone from the idea of not wearing masks 
to now everyone, almost everyone in this room wearing masks. 
And that is a 2-month evolution of thought process.
    So we are able to look at what is happening and respond and 
put that information out as expeditiously as possible through 
our website. And yet our folks are still, as I have said, 24/7 
out there responding to COVID and, unfortunately, responding to 
other safety and health concerns. As people are returning to 
work, we are seeing a small increase in problems related to 
what I would call what we do on an everyday basis related to 
safety and health.
    So this is a good opportunity, I think, to remind folks 
that all of their obligations exist under the OSH Act and that 
employers need to really be focused on those as they restart 
their businesses.
    Mr. Walberg. In a Committee-Democrat forum held on May 14, 
former Assistant Secretary for OSHA, David Michaels, who I 
worked with extensively back then, told Members that if he was 
in charge of the agency during the COVID-19 pandemic, it would 
be doing inspections of high-profile workplaces and would be 
talking to the media to inform workers of their rights. Yet by 
all accounts, OSHA is doing just that.
    Can you elaborate on the department's efforts in this 
regard? And are there any other misleading statements made by 
our friends on the other side of the aisle that their union 
allies -- and their union allies that you would like to clear 
up?
    Ms. Sweatt. I would like to highlight one part of your 
question about whistleblowers. I think you could not get a 
better spokesperson for whistleblower protection than the 
Secretary of Labor at the White House. And he pointedly said, 
on April 9, that retaliation would not be tolerated. Our 
whistleblower investigators have tackled the almost 2,000 COVID 
complaints that we have received and the other 2,000 complaints 
that we have received from our other 23 or 22 statutes.
    So we have seen success with reinstatement of 
whistleblowers. We have seen, as I said, letters of reprimand 
removed. And we have seen actual policy changes by businesses 
to ensure that workers have the right to express concerns about 
their safety and health in the workplace.
    I am not really sure where people aren't seeing that 
message, but truly, the Secretary of Labor -- there is no 
higher authority, in my world, from the White House to 
determine and determinly say that this is not acceptable 
behavior.
    Mr. Walberg. I appreciate that. Thank you.
    I yield back.
    Mr. Scott. Thank you. The gentlelady from Oregon, Ms. 
Bonamici.
    Ms. Bonamici. Thank you to the Chair and the Ranking 
Member, and also to our witnesses today.
    We just, yesterday, in the United States passed 100,000 
deaths. And those aren't just numbers, they are real people. 
And our thoughts and prayers are with their families. But we 
have to keep in mind that the Occupational Safety and Health 
Administration and the National Institute for Occupational 
Safety and Health have an obligation to prevent workers from 
hazardous conditions on the job, and they are falling short. 
Too many workers are facing risks at work.
    In the absence of leadership from the agencies, I was proud 
to join Chairman Scott in introducing the COVID-19 Every Worker 
Protection Act, and I was pleased that it was included in The 
Heroes Act. And my thoughts are with those essential workers 
who are showing up every day despite the risks -- the nurses, 
the doctors, the grocery store workers, the firefighters, 
postal employers, childcare workers, health workers. They are 
the heart and soul of our communities right now, and they are 
going to help us get through this.
    Dr. Howard, I want to ask you this, CDC recently changed 
its guidance allowing healthcare workers to use surgical masks 
rather than N95 respirators. After the CDC issued this 
guidance, and many hospitals denied healthcare workers access 
to N95s, news reports document cases of healthcare workers who 
objected to the CDC guidance and had their credentials 
challenged and were fired for insubordination, and some 
tragically died of COVID-19 because they lacked access to prep 
or PPE, personal protective equipment.
    So, Dr. Howard, was the change in the CDC guidance based on 
shortages in personal protective equipment or based on new 
scientific information?
    Dr. Howard. Thank you for that question. The answer is 
unequivocally it was based on a crisis strategy that we have a 
global shortage of the supply of N95 respirators. The science 
has not changed. It is only our current situation of supply.
    Ms. Bonamici. Thank you.
    Ms. Sweatt, you noted in your testimony that OSHA has the 
tools to protect workers from COVID-19 by enforcing the general 
duty clause and other existing OSHA standards. OSHA has 
received, as you noted, nearly 5,000 complaints and referrals 
related to COVID-19, and those range, it is my understanding, 
from outbreaks in the workplace to lack of access to PPE and 
insufficient physical distancing practices.
    The majority of these cases have been closed without 
action. So Ms. Sweatt, how many COVID-19-related citations has 
OSHA issued under the general duty clause?
    Ms. Sweatt. Sorry. At this point, we have issued one 
citation under an existing standard, and I would note that we 
still have 6 months to complete any investigation or 
enforcement action.
    So I think relying on looking at citations is maybe not the 
best parameters here. What we are really trying to do is remove 
the worker from the hazard or remove the hazard from the 
workplace. And so our priority has been that. We have been 
proactively working on all of those issues when we receive 
these complaints. Employers get information, in case they are 
not fully aware, and they are able to change their work 
practice. Where we do not find an employer who is protecting 
their workers, we will enforce --
    Ms. Bonamici. Ms. Sweatt, I am going to reclaim my time 
because I have some more questions. How many COVID-19-related 
citations has OSHA issued under any existing standard during 
COVID-19?
    Ms. Sweatt. As I said, we have had one within the last 
week, and, you know, there is still a very -- a substantial 
amount of time within our statute of limitations. These --
    Ms. Bonamici. I understand. But just one, and it is my 
understanding that was for a recordkeeping violation.
    Ms. Sweatt. It was --
    Ms. Bonamici. And I understand the general duty clause 
citation could take more time, which is why it would be more 
efficient and effective for OSHA to issue an Emergency 
Temporary Standard. But in your testimony, you emphasize that 
OSHA's existing standards for respirators, PPE, and 
sanitations, can these citations be issued faster?
    Ms. Sweatt. We have to build a legal case to defend our 
citations, and I do not believe that rushing to issue a 
citation is really the best effort. What our folks need to do 
and are doing is proactively inspect and investigate all 
complaints that we receive and build the appropriate legal case 
to defend those. To issue a citation that is not legally 
defensible would be irresponsible on our part.
    Ms. Bonamici. And I appreciate that, but in my home State 
of Oregon, Oregon OSHA has been more proactive. Their efforts 
have not been perfect, but I have been calling on them to do 
more to protect workers. Oregon OSHA recently issued a willful 
violation to a business in only 9 days. So what prevents 
Federal OSHA issuing citations in a similar time --
    Ms. Sweatt. Nothing prevents that, but what I don't think 
you see related to our complaints is, when we provide the 
employer information to protect their workers and their 
practices change. And that is one of the key elements is to 
remove the worker from the hazard or remove the hazard.
    So we think that there is positive action occurring when we 
have taken these complaints. And when we see an employer who is 
not moving to make appropriate changes, we can enforce.
    Ms. Bonamici. Well, I also want to note, Mr. Chairman, and 
colleagues, this committee received a letter from Dr. Rayfield, 
dated May 20, and with that letter, Dr. -- excuse me -- 
Redfield attached the table with the CDC available data on 
healthcare worker infection rates.
    He also noted that it is likely an underestimate and not 
all cases are reported to the CDC. And I just want to note how 
challenging it is not only for you at OSHA and NIOSH to do your 
work but for us as policymakers to make good policy decisions 
without good data, so -- and I know my time is about to expire, 
or has expired. But I just want to note --
    Mr. Scott. It has expired.
    Ms. Bonamici. -- that we really need good data, and we 
don't have it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Scott. Thank you. The gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. Yes. A couple questions. First of all, I 
think things are getting better. But part of the problem you 
are going to hear from employers is a lack of PPE. Okay? And in 
my district, we have some ability to make more masks, for 
example, which I think is one of the big things that employers 
are going to need. But I am wondering, are either of your 
agencies doing anything? It frustrates me, because I think we 
should have been weighing in harder, and the industry in my 
district is just doing yeoman's work in getting their new 
machines up and running quicker than they would under normal 
circumstances.
    But I am a little bit frustrated, say, with regard to FEMA, 
who I think maybe could have waited a little bit more or done a 
little bit more. Are you guys doing anything in your agencies 
to make sure that PPE is available for the businesses, or 
keeping track of how much we need, or working in coordination 
with FEMA or something like that?
    Ms. Sweatt. I will start very quickly, because I think Dr. 
Howard has a more robust responsibility in this area. One thing 
that OSHA has participated in over the last 3 months is the 
supply chain task force, and so our folks have been working 
with our Federal partners to determine how we can get more 
supply in.
    And, again, I testified previously, the most important 
thing that we did was our five guidance documents to try and 
assure that there was PPE respiratory protection available 
related to the burn rate within hospitals. And I will refer to 
Dr. Howard.
    Dr. Howard. Thank you very much. We work at NIOSH with our 
partners at CDC. CDC is part of the National Response 
Coordination Center, which is run by FEMA. Currently, the SNS, 
the national stockpile, is purchasing 800 million respirators. 
On the supply side, 3M is now up to 90 million respirators per 
month. Honeywell is up to 20 million respirators per month. So 
we are seeing a change now from where we were 3 months ago. So 
the supply is increasing.
    Now, I can't say the distribution of that supply in every 
corner of the United States is the same, but the supply 
pipeline is increasing.
    Mr. Grothman. Okay. How many masks a month do you think we 
need?
    Dr. Howard. You know, that is a very difficult thing to 
figure out.
    Mr. Grothman. You can --
    Dr. Howard. One of the things that the NRCC is doing is 
looking at, as Loren said, that supply chain, what is the 
utilization. And we have a PPE burn rate calculator, which is 
now an app, that individual hospitals can use to figure out 
their own burn rate of that PPE.
    And we have a PPE monitoring system where we have about a 
hundred hospitals enrolled to date where we are developing that 
national system so we can figure out what is the inventory and 
what is the utilization rate.
    Mr. Grothman. Presumably you want some in places other than 
hospitals too. Aren't there other employers who you are going 
to want it for as well?
    Dr. Howard. Sure. What we are talking about though right 
now is the N95 respirator, which is, as we talked about, used 
for aerosolized procedures in hospitals.
    Mr. Grothman. And what is your target? How many a day do 
you think you need? Do you have -- you must have an idea.
    Dr. Howard. Well, we are talking in the billions in order 
to bring us --
    Mr. Grothman. Two million? Five million? What is your 
target?
    Dr. Howard. For the national supply?
    Mr. Grothman. Correct.
    Dr. Howard. Yeah, that number I don't know, but it is 
certainly in the billions.
    Mr. Grothman. Okay. Ms. Sweatt, thanks for being here 
again. I would like to ask you how OSHA helps employers 
determine worker risk of occupational exposure to COVID-19. I 
have a lot of manufacturing facilities in my district. Based on 
their specific operations, manufacturers may feel they fall 
into high-risk, medium-risk, low-risk. What is the biggest 
determining factor in the decision as to how close 
manufacturing workers are?
    What is the biggest factor determining how close 
manufacturing workers can be to each other throughout the day, 
and what are other factors that go into the classification of 
high-risk, medium-risk, or low-risk?
    Ms. Sweatt. Sure. It is the sustained contact issue. So I 
think we have put out manufacturing guidance to help folks work 
through the issues. It is really incumbent upon the employer to 
do an analysis of their work practices and determine if there 
are changes that they can make. And you know, we have our 
hierarchy of controls within there.
    I know some folks find that to be maybe tedious, but I 
think that manufacturers have folks that are, you know, trained 
in this area, but it is really an important part of the agency 
as well, that we have compliance assistance specialists, and 
they are available.
    Mr. Grothman. I have one more quick question which just 
kind of popped into my head.
    Ms. Sweatt. Sure.
    Mr. Grothman. There was a feeling among some medical 
professionals that eventually regardless of what we do, this 
COVID is going to go through the population, that we should 
maybe protect the vulnerable, but it is inevitable that it will 
go through the population as a whole. The only question is how 
long that is going to take. Do you believe that or not? Five 
years from now, assuming we don't get a vaccine, is everybody 
going to be touched by it or not? What do you think?
    Ms. Sweatt. I think that is outside of my jurisdiction at 
OSHA, and I would refer to Dr. Howard.
    Chairwoman Adams. Thank you very much. We --
    Dr. Howard. Do you want me to respond?
    Chairwoman Adams. Briefly.
    Dr. Howard. Yeah. There is no timeline. As Dr. Fauci has 
said at NIH, we are talking about 12 to 18 months, perhaps, at 
the outside for a vaccine. We hope for it being sooner. That 
would certainly be great. The issue about everybody in the 
population getting COVID-19, the issue is, do they all show up 
in the same emergency room at the same time? That is the issue, 
is protecting the healthcare system.
    Mr. Grothman. Do you believe it is inevitable over 5 years?
    Dr. Howard. I don't believe it is inevitable, but I do 
think that if everybody gets it all at once, you are going to 
end up crashing your healthcare system.
    Chairwoman Adams. Thank you very much. Thank you very much.
    Let me recognize our distinguished Chair of Education and 
Labor Committee, the gentleman from Virginia, Mr. Scott. You 
are recognized.
    Mr. Scott. Thank you, and thank our witnesses for being 
with us today. Ms. Sweatt, you have indicated that you are not 
responding to questions involving the Emergency Temporary 
Standard. I agree with the gentleman from Alabama that no good 
lawyer likes his client talking about issues under litigation, 
but as the Chair has indicated, you need a legal basis for that 
claim. Are you claiming a legal privilege, and if so, which 
specific privilege are you claiming?
    Ms. Sweatt. I have been advised by Department counsel not 
to answer questions on ETS.
    Mr. Scott. Can you provide for the record -- apparently you 
don't know which privilege they are using. If you could provide 
for the Committee exactly which legal privilege you are relying 
on, in order not to answer questions.
    Ms. Sweatt. [Nonverbal response.]
    Mr. Scott. And you have indicated in your testimony that 
OSHA considers retaliation against workers unacceptable. How 
many complaints of retaliation has OSHA received, and how many 
businesses have been sanctioned for retaliation?
    Ms. Sweatt. We have, as of May 26, 1,374 whistleblower 
complaints for COVID, and there is no statute of limitations on 
the investigations of those. So while investigations are 
ongoing, I can tell you in certain circumstances, we have seen 
resolution almost immediately when the whistleblower calls to 
initiate the investigation and --
    Mr. Scott. Well, by ``resolution,'' do you mean the worker 
got their job back?
    Ms. Sweatt. Yes, sir.
    Mr. Scott. Well, that is not a sanction. They shouldn't 
have been fired to begin with. How many businesses have been 
sanctioned?
    Ms. Sweatt. At this juncture, I don't believe we have 
issued any sanctions per se.
    Mr. Scott. So the --
    Ms. Sweatt. We have seen back pay -- reinstatement and 
backpay. And I think one of the more important issues is the 
change of approach by some of these businesses about how they 
address safety and health.
    Mr. Scott. So people have been fired in retaliation for 
making a complaint, and the businesses really show no -- there 
is no deterrence for that action?
    Ms. Sweatt. They reinstate, and they have to pay backpay.
    Mr. Scott. Okay. At which they owed the pay to begin with, 
and the person shouldn't have been fired to begin with, but 
there is no sanction.
    We know that there are many deaths in nursing homes, meat-
packing plants, as well as healthcare facilities. The general 
duty clause is generally used after a death or serious injury, 
not for prevention. How many site visits have been conducted by 
OSHA, proactively for prevention, rather than in response to a 
death or some kind of complaint?
    Ms. Sweatt. I would say everything that we do is proactive, 
and we have issued nursing home guidance. And I would also 
point back to everything that we have done to try and protect 
the respirator supply for individuals in --
    Mr. Scott. But I asked you, how many have been proactive 
and not in response to a death or a complaint? In your response 
to questions in writing that you responded, you said all of 
OSHA's inspections are initiated through unprogrammed activity, 
those were either opened as a fatality inspection, catastrophe 
inspection, response to employer reports of hospitalized 
workers or initiated in response to complaints. None were 
proactive prevention.
    Ms. Sweatt. I would say that if you look at what we have 
done in previous natural disasters or other emergency 
situations where we have suspended enforcement, we proactively 
chose to not suspend enforcement in this area, and so, in fact, 
we have proactively pursued complaint inspections and 
investigations and done onsite --
    Mr. Scott. Proactively in response to complaints, that is 
not proactive. Is OSHA bound by the policy of eliminating two 
rules in order to establish a new rule?
    Ms. Sweatt. The Department as a whole is, yes.
    Mr. Scott. So you can't establish an Emergency Temporary 
Standard without repealing two other rules?
    Ms. Sweatt. I think that is a question that you are trying 
to get on the Emergency Temporary Standard area. The two-for-
one is larger than just the agency.
    Mr. Scott. Okay well --
    Ms. Sweatt. And so --
    Mr. Scott. I have a question for Dr. Howard. You formerly 
worked in California. Does California have an airborne 
transmissible disease standard, and what should Congress 
consider in drafting legislation to protect workers from 
airborne infectious diseases?
    Dr. Howard. Well, certainly California does have an aerosol 
transmissible disease standard. But I will leave the 
legislating to people who do that for a living.
    Mr. Scott. How long has it been in effect?
    Dr. Howard. I think it was 2013, somewhere around there. It 
was in development for a number of years before that.
    Mr. Scott. Thank you, Madam Chair.
    Chairwoman Adams. Thank you. Thank you, Mr. Scott.
    The gentleman from Kentucky, Mr. Comer, you are recognized.
    Mr. Comer. Thank you, Madam Chair. Ms. Sweatt, we have 
heard untrue claims that the Trump Administration did not act 
soon enough to prevent coronavirus from entering our country. 
Can you give some detail about the actions taken by your agency 
prior to COVID-19 being declared a pandemic by the World Health 
Organization on March 11th to ensure that healthcare workers 
and other essential businesses were prepared to respond to 
unprecedented workplace safety challenges?
    Ms. Sweatt. Thank you, Congressman, for the question. OSHA 
had started as early as January of this year putting 
information on our website, through a safety and health topics 
page, to inform individuals about the pandemic, which at that 
point was an unknown novel coronavirus. We have pursued 
updating our safety and health topics page.
    We outlined what standards we thought employers should be 
aware of, that they should be in compliance with, and we have 
subsequently provided general industry guidance, along with 
almost 20 actual individual industry guidance documents to help 
employers respond to this pandemic.
    Mr. Comer. Dr. Howard, the poultry and beef cattle 
industries are major industries in my congressional district, 
and I have four major poultry processing facilities located in 
my district. Two of those have been significantly affected by 
minor COVID-19 outbreaks. You testified that NIOSH has been on 
the ground in dozens of meat-packing and meat-processing 
facilities across the country, conducting site visits, and 
providing recommendations to employers based on your 
observations. Can you explain some of the workplace safety 
challenges you have observed in these facilities and how 
businesses are implementing measures to address these 
challenges?
    Dr. Howard. Sure. As I said, you know this -- whether it is 
beef or pork or chicken, these are very labor-intensive 
activities. And people are extremely close together on a 
production line, and if the fundamental principle for 
protecting workers from COVID-19 is to separate people, it is 
really a feasibility challenge in these meat-processing plants.
    So we have come up with a number of different 
recommendations. In fact, they fill about 15 pages of our joint 
CDC/OSHA guidance, to try to help employers figure out how they 
can do that and still be able to produce the food the country 
needs. And that is a real challenge.
    Mr. Comer. I think we have learned as a public -- I am an 
agriculture guy, a former Commissioner of agriculture, so I 
knew this already, but a lot of Americans are figuring out that 
employees at food processing facilities are very essential 
workers. So I appreciate what you are doing there.
    There have been a few local hotspots in my congressional 
district, very few. I have 35 counties, I have probably had 
four counties that have had any, you know, measurable activity 
as far as being a hotspot in my congressional district. I am 
very thankful for that. And in Kentucky, businesses are slowly 
-- and I can't say this enough in Kentucky -- very slowly 
reopening.
    Every employer wants safety, that I know of. The CDC now 
recommends that everyone should wear a mask in public settings. 
This would apply to businesses and their employees as they 
return to the workplaces. Dr. Howard, are there any 
circumstances in which an employer should not have their 
employees wear a mask?
    Dr. Howard. Well, there are. There are some folks that have 
preexisting respiratory conditions. Things that are over their 
mouth make it difficult for them to breathe. They already have 
a difficult time breathing, so putting a mask on their nose and 
mouth can make it more difficult. So certainly those folks may 
not be able to wear a respirator, and they may complain to the 
employer. They just can't tolerate it. So some workers are 
going to be in that category.
    Mr. Comer. What about the recommendation that some States 
are implementing, I think based on CDC recommendations, with 
respect to youth sports, that young people wear masks, for 
example, playing baseball this summer? My son's on a tribal 
baseball team, and, you know, the temperature gets up in the 
hundred-degree weather and they are outside, they are spread 
out pretty good, but our governor came out and said that those 
kids need to wear masks.
    Is that something that should be of a concern for the 
children, 11, 12 years old or younger, wearing masks outside in 
hundred-degree weather?
    Dr. Howard. You know, CDC is just getting into the area of 
sports, both professional, amateur, and children's sports. So 
we don't have a lot of guidance on that area, but these are the 
kind of issues that we are all going to face as we approach the 
summer in terms of reopening.
    Chairwoman Adams. Thank you, sir.
    Dr. Howard. So these are the things that we are thinking 
about.
    Mr. Comer. Thank you.
    Chairwoman Adams. Thank you.
    All right. Thank you very much. I would like to recognize 
the gentleman from Michigan. Mr. Levin, you are recognized, 
sir.
    Mr. Levin. Thank you so much, Madam Chairwoman, and thanks 
for holding this very important hearing. Earlier I think 
perhaps in the discussion with Mr. Courtney, Dr. Howard, you 
said that during the AIDS crisis, Congress required and OSHA 
implemented a mandatory standard to protect workers during the 
AIDS crisis. Is that correct?
    Dr. Howard. Yes. I think it was actually Ms. Sweatt that 
referred to the congressional mandate at that time.
    Mr. Levin. Okay. But so that happened then. And then some 
of my colleagues mentioned that, quite extensively, that the 
Trump Administration has acted similarly to the Obama 
Administration during the SARS outbreak, and so that this is an 
appropriate response.
    Ms. Sweatt, are you aware of how many Americans died during 
the SARS outbreak?
    Ms. Sweatt. I don't have those figures in front of me, no.
    Mr. Levin. Well, let me share them with you from the CDC 
website. In the United States of America, eight persons were 
laboratory confirmed as SARS cases, and there were no SARS-
related deaths in the United States. Would you consider that to 
be a comparable situation to what we are going through now?
    Ms. Sweatt. I can tell you from the place that I sit at the 
occupational safety -- excuse me?
    Mr. Levin. I think that is a yes or no question. Ma'am, I 
am sorry I am not in the room with you, but that is a yes or no 
question.
    Ms. Sweatt. I have to tell you, from where I sit at the 
Occupational Safety and Health Administration, we are at almost 
5,000 complaints on COVID, and we are responding as rapidly as 
we can.
    Mr. Levin. Okay. I am going to move on. I have got to move 
on with my questions. So NPR just reported this morning that we 
have had close to 300 United States healthcare workers alone 
killed by COVID-19. And obviously we have had a hundred 
thousand Americans who have passed away from COVID-19. Ms. 
Sweatt, given --
    Ms. Sweatt, more than three-quarters of OSHA's COVID-19-
related inspections have been fatality investigations. To put 
it bluntly, OSHA is stepping in only once someone has died. 
Every day I get calls from workers who are terrified that they 
will become sick in their workplaces. Many worry not for their 
own lives but for the lives of sick or elderly family members 
that they reside with and support. What should I tell those 
frightened workers and those vulnerable workers about the fact 
that OSHA refuses to issue any mandatory standards in the 
greatest workplace healthcare crisis in our history?
    Ms. Sweatt. As I have said before, OSHA has existing 
standards to address a variety of aspects of this virus, and we 
are enforcing where we find failure to comply.
    Mr. Levin. Ma'am, you have issued one citation in the 
greatest crisis. You say you are acting proactively, but in 
fact, what you are doing is the definition of reactive. You are 
refusing to act proactively and issue a mandatory standard of 
any kind during the greatest healthcare crisis in the workplace 
in modern history.
    If your agency inspects workplaces only after a worker has 
died, you are not preventing worker infections. I would suggest 
that your agency could be acting strategically, looking 
proactively at industry sectors, determining the worst actors, 
identifying infection vectors, and protecting workers from 
being put in situations of unnecessary and cruel risk. But your 
agency is waiting for the worst possible outcomes before taking 
action. This is simply unconscionable.
    Let me ask a question of Dr. Howard. Sir, how long have you 
been in this field of occupational medicine yourself?
    Dr. Howard. Since 1981.
    Mr. Levin. And, sir, have you ever seen a comparable 
situation of the scope and scale of health risk in American 
workplaces during your long and distinguished career?
    Dr. Howard. The only comparison I can make is in the 1980s 
with the human immunodeficiency virus.
    Chairwoman Adams. Thank you very much. You are out of time. 
Thank you.
    I want to recognize now the gentleman from Pennsylvania, 
Mr. Smucker.
    Mr. Smucker. Thank you, Madam Chair. Ms. Sweatt, thank you 
so much for rebalancing OSHA's mission to ensure compliance 
assistance is a priority. As a former construction business 
owner, I know how important that can be. Employers really do 
want to do the right thing. They care about their employees. 
They want to keep employees safe. And feeling like they can ask 
OSHA for assistance to ensure they are doing things correctly 
is absolutely critical.
    It appears to me my colleagues on the other side of the 
aisle are looking to pin OSHA as the scapegoat and place blame 
for the spread of a global pandemic on employers. And I will 
just, food for thought, that may seem like a pro-worker stance 
right now, but it won't be very pro-worker when their misguided 
targeting causes them to lose all their jobs due to business 
closures.
    So a question for you, my colleagues on the other side of 
the aisle seem to think the guidance you put out is optional 
and that employers can choose to follow them. They will argue 
that this is why we need to pass more onerous laws that will 
end up in a legal spider web that do not meet the needs of all 
industries.
    Do you think that rhetoric could ultimately be more 
dangerous for workers if employers are misled to believe that 
they don't legally need to follow your guidance?
    Ms. Sweatt. Well, I definitely think it is problematic, but 
I think what we need to say here is employers do need to know 
and understand their obligations under the Occupational Safety 
and Health Act. They need to make a plan. They need to 
determine what they need to do to protect their workers, and 
the time to do that is now before a dramatic reopening.
    I know we have talked a lot today about essential workers, 
and, you know, we have looked at a lot of these essential 
worker categories and have tried to provide the best updated 
scientifically accurate guidance that we can, and you know, we 
will continue to do our work.
    And if I could respond briefly to the previous question 
that I received. You know, OSHA has responded to almost 5,000 
COVID complaints, and what we are trying to achieve every day 
is removing the worker from the hazard or removing the hazard 
from the workplace.
    Mr. Smucker. So can you tell me a little bit more about 
that process, the screening process, when you do get a 
complaint? How does it get evaluated? How long does it take? 
How is it determined that OSHA will open an investigation, and 
if so, what does the investigation entail?
    Ms. Sweatt. Thank you. The investigation entails the 
employer being put immediately on alert that we understand 
there could be a problem in their workplace. They have to 
respond to us. They have to tell us what they are doing to 
resolve the complaint. If we find the resolution that they have 
proffered inappropriate or not protective of the worker, we can 
convert to an inspection and, you know, work to our 
enforcement.
    But again, it is removing the worker from the hazard or 
removing the hazard from the workplace. These are really the 
goals that we need to be focused on to protect workers and not 
just issuing citations.
    Mr. Smucker. Thank you. I am going to go to Dr. Howard. I 
would like to thank you for the work that your agency is doing 
to produce the guidance that all Americans are relying on to 
make safe decisions as they navigate the threat of COVID-19. We 
appreciate all the long hours that both you and your team at 
NIOSH, as well as the team folks at OSHA are putting in to 
ensure that guidance is there. It really is needed for 
employers to safely reopen.
    I know NIOSH has played a central role in finding ways to 
overcome the global shortage of PPE. And we have heard from 
hospitals in our district that it has been difficult to find 
sources. Just what information can you share to help them 
address PPE shortages and also employers as well? How do they 
find appropriate and safe PPE?
    Dr. Howard. Well, as I mentioned before, the supply of 
filtering facepiece respirators, like N95s, is increasing. I 
pointed out that domestic manufacturers, like 3M and Honeywell, 
have doubled, tripled their production capabilities. 3M is 
making 90 million N95s per month. Honeywell is making 20 
million N95s per month.
    Mr. Smucker. I want to get in one additional question. I 
know that CDC collects data on instances in which COVID 
exposure could have happened in the workplace. How can we truly 
determine if someone's exposure did indeed occur in the 
workplace?
    Dr. Howard. Well, thank you for that question. That is a 
very difficult question to answer, to tease out what is true 
occupational exposure from what is community exposure that is 
then carried into the workplace. Remember, this virus doesn't 
have wings or feet. It has to have a person carry it around.
    So distinguishing between occupational transmission and 
community transmission is a topic that is involving some very 
smart epidemiologists at CDC currently.
    Chairwoman Adams. Thank you very much. You are out of time.
    Let me recognize now the gentle lady from Florida, Dr. 
Shalala. You are recognized.
    Ms. Shalala. Thank you very much. Ms. Sweatt, you told 
Representative Bath to look at the regulatory agenda for the 
status of the OSHA infectious disease standard. That standard 
is languishing on a long-term agenda -- after a hundred 
thousand deaths and thousands of worker deaths, how can you not 
be working on that particular standard?
    Ms. Sweatt. Thank you for the question, Dr. Shalala. 
Because at this juncture, we are working on responding to the 
COVID pandemic, and I am putting the regulatory agenda aside. 
The work of this agency has been focused on protecting workers 
and, again, removing them from the hazard. And that is, you 
know, our primary mission and goal right now is to execute that 
work.
    Ms. Shalala. I didn't understand that answer, but let me go 
on to Dr. Howard because I am interested in data. The CMS has 
issued regulations that require that all long-term care 
facilities and nursing homes that receive Medicare and Medicaid 
funding report the number of infections and deaths among 
residents and staff members, PPE supplies, staffing shortages, 
and testing -- CMS has said that these facility reports will be 
publicly available.
    Wouldn't it make sense to add the requirement for hospitals 
to report healthcare worker COVID-19 infections and deaths to 
the existing reporting requirements? I looked at the CDC new 
requirements for the States. CMS is going to collect better 
data, and I would think that after they set out the nursing 
home and long-term care facilities data that they wanted, that 
they ought to extend it to hospitals and other healthcare 
institutions. Could you react to that?
    Dr. Howard. Sure. And I think that is up to CMS, but on the 
CDC front, we are moving in data modernization to taking the 
beginning of the pipeline for disease surveillance data, which 
is the healthcare facility, and then the State health 
department and then to CDC, we are looking at electronic data 
modernization, and we thank the Congress for the additional 
funds that are available there.
    In the here and now, we have redone our case report form 
which includes specific sections about healthcare workers, as 
well as workplace exposures. So we are hoping that new form, 
which the States now are getting up to speed on, will improve 
our ability to know exactly where the occupational -- industry 
and occupations are in the American workforce.
    Ms. Shalala. Let me follow up on that. As you know, the CDC 
has had trouble getting States to use uniform standards for 
information so that you couldn't compare it nationally. Will 
this particular standard be the same for every State, or will 
they be able to vary it as they have in the past?
    Dr. Howard. Thank you for that question. Excellent 
question. We are trying to move to a uniform national 
surveillance disease reporting system. So that is the goal. 
With the cooperation of the States, we hope that -- and the 
States have challenges. Some States have some IT support 
challenges in getting there, but hopefully we are going to be 
much better off than we have been in terms of national disease 
surveillance.
    Ms. Shalala. It includes nursing homes, I assume?
    Dr. Howard. Yes. It includes any kind of institution that 
is reporting disease that, as you well know, having been 
Secretary of HHS, the CSTE and CDC have agreed to collaborate 
on reporting that particular condition to the Federal 
Government.
    Ms. Shalala. Thank you. I yield back.
    Chairwoman Adams. Thank you very much.
    I want to yield now to the gentleman from Kansas, Mr. 
Watkins. You are recognized.
    Oh, I am sorry.
    Mr. Watkins. Thank you, Madam Chair.
    Chairwoman Adams. Oh, just a minute, I am sorry. Mr. 
Meuser, you are recognized. I apologize, Mr. Watkins.
    Mr. Watkins. No apology necessary. Thank you, Madam Chair.
    Mr. Meuser. Well, thank you, thank you both for being here 
very much, being present and answering our questions.
    So getting our economy open, getting people back to work is 
just about a top priority, right above all else, as well as 
getting our schools open, come September. So maybe I could ask 
a couple questions about that as well.
    But what is crucial, of course, is that businesses open 
with a high level of health and safety workplace standards. And 
I am a firm believer that our businesses need to open, but we 
need to in a very responsible manner. And I don't think that 
this is going to be over the short-term. Businesses need to 
prepare for a longer term, evolving, always improving health 
and safety work environment.
    So from OSHA's standpoint, I know, Ms. Sweatt, you have 
been putting out -- OSHA has been putting out guidance for a 
while now, I think as many as 26 or 27 different forms of 
workplace guidance. I assume that is going to continue to 
evolve and -- I haven't read them all, my apologies -- but are 
you offering the essentials behind social distancing -- and 
again as guidance -- PPEs, the masks, when it is appropriate to 
wear gloves? Is OSHA's guidance getting that specific?
    Ms. Sweatt. Our guidance is pretty comprehensive, yes. And 
I think as folks look to returning to work, employers should 
start to plan now about how they are going to protect their 
workers. They can do that by examining work practices, and our 
guidance speaks to a variety of different work practices.
    So, yes, for example, our meat-packing guidance discusses 
social distancing as well as carpooling. So I think that it is 
robust guidance to provide information to employers and 
workers.
    Mr. Meuser. Okay. Are businesses, are you finding, asking 
for any additional funding or some sort of support to set 
themselves up with plexiglass and everything else? Who knows, 
maybe even building another annex, so all workplace areas can 
be six feet apart? Are you getting any requests such as that?
    Ms. Sweatt. I am not getting funding requests, but our 
compliance assistance specialists, and our compliance 
assistance program has received almost 5,000 requests for 
information, so I think people are looking to the agency for 
answers.
    Mr. Meuser. Okay. And Dr. Howard, are you involved as well 
in putting out guidance for workplace? I read some of your 
background.
    Dr. Howard. Yes. That is an understatement. We have reams 
of guidance available in very specific situations.
    Mr. Meuser. Okay. Is CDC, is OSHA adopting it? Are you 
finding it to be practical and useful?
    Dr. Howard. A lot of the guidance that relates to 
workplaces specifically and workers are reviewed by OSHA folks 
before they are issued by CDC, so there is a collaborative 
effort.
    Mr. Meuser. Okay. Is OSHA finding high level of compliance? 
I spend a tremendous amount of time talking with businesses 
throughout my district and visiting them, even under today's 
circumstances, because they are working, and so we go out. Are 
you finding a high level of compliance, Ms. Sweatt?
    Ms. Sweatt. I think there is a mixture of results, but I do 
think that employers are attempting to achieve the best 
protection that they can. And again, where we fail to see that, 
our enforcement folks will be right there.
    Mr. Meuser. Okay. I would -- do you offer any models? Do 
you use any companies as examples? There are many throughout my 
district if you are interested in those that not only have made 
their workplace very comfortable and very safe, but the records 
show it. Many of them have had no COVID cases with over 500 
employees, and they have been following strict guidelines, that 
they get the feedback from their workers, which is smart, for 
how to achieve this. Are you gaining such information on a 
regular basis and offering models?
    Ms. Sweatt. We are very fortunate that people are providing 
some of their return-to-work practices, and so we can review 
that in the context of our standards, and you know, we are 
actively participating in webinars with a variety of 
stakeholders, and the union folks have been talking to us.
    So we are engaged, we are open, we are listening, and we 
will adapt our guidance documents to what we are learning.
    Mr. Meuser. Well, it is very important, obviously not a 
higher priority than finding a vaccine and correcting the virus 
itself. Lastly, are you providing any information for 
restaurants and -- for the actual opening? Are you planning 
ahead for what restaurants can do in order to open safely?
    Ms. Sweatt. There is CDC guidance available already, yeah.
    Dr. Howard. CDC has guidance on restaurants and bars.
    Mr. Meuser. Right. But it needs to evolve. That guidance 
doesn't necessarily include people sitting down and operating -
-
    Dr. Howard. Yes. The current guidance has all of those 
issues, but I also mentioned that all of our guidance is 
evolving. And so additional information may be available.
    Chairwoman Adams. Thank you.
    Mr. Meuser. Thanks for the answers. I yield back. Thank 
you.
    Chairwoman Adams. Thank you very much. Let me yield now to 
the gentleman from Texas, Mr. Castro. You are recognized.
    Mr. Castro. Thank you, Chairwoman, and thank you all for 
your testimony today. On April 28, President Trump announced 
that he would issue an executive order that would use the 
Defense Production Act to force meat-packing plants to remain 
open, leaving tens of thousands of workers in unsafe 
conditions.
    The actual executive order did not do that, because it 
turns out there is no authority under the DPA to force plants 
to stay open. Instead, the order left meat-packing plants 
without any protection for workers, letting tens of thousands 
of workers get sick, and over 20 meat-packing plants to close 
down.
    Ms. Sweatt, after President Trump issued his executive 
order, you and Solicitor of Labor Kate O'Scannlain issued a 
statement stating that before issuing citations, quote, OSHA 
will take into account good-faith attempts to follow the joint 
CDC/OSHA meat-processing guidance.
    So my question, my first question to you is, what motivated 
the issuance of this statement? Who directed you and the 
Solicitor to issue it, and can you explain what you mean in the 
statement by ``good-faith attempts''?
    Ms. Sweatt. So to start with the good-faith effort, it is 
to look at the guidance that we have issued jointly with CDC, 
and we have seen employers in this area already instituting a 
lot of the guidance in the information here. So there has been 
some, you know, proactive measures taken. OSHA is working with 
Dr. Howard's office and FSIS. We are having daily phone calls 
to examine the issues surrounding what they are seeing on the 
ground and what we are seeing.
    We have active enforcement efforts, and we have been into 
these plants for inspections, and we will continue to do that.
    Mr. Castro. How many plants have you all inspected?
    Ms. Sweatt. We have, I think, almost 58 meat-packing 
compliance -- sorry -- enforcement activities right now. And I 
think we have been into about 10 within the last week.
    Mr. Castro. And there have been, in the last count I saw, 
about 11,000 folks infected because of meat-packing plants. 
Many folks have died. Many of the workers have died. So if an 
employer shows good faith, is it the case that there will be no 
OSHA citation? Is that right?
    Ms. Sweatt. Well, good faith and other standards are two 
different things. So I would hesitate to comment on a strawman 
if you will. Enforcement is going to be based on the specifics 
of what we find in a plant.
    Mr. Castro. Well, I don't think it is a strawman. I mean, I 
think people's lives are literally on the line. People are 
getting infected here. These standards are not mandatory 
standards. We can agree on that, right?
    Ms. Sweatt. We have existing standards for other 
activities, sanitation being one of the key, I think, in this 
area. I would like to say for a moment, you know, the people 
that work at OSHA are dedicated to protecting workers and 
preventing illness, injury, and fatalities. So --
    Mr. Castro. Well, let me -- I don't question that. Let me 
ask you, do you think these standards that have been discussed 
recently when the pandemic hit, do you think these standards 
should be mandatory?
    Ms. Sweatt. I think that what we have provided in this 
guidance is a roadmap to helping protect these workers. It is 
one element of the response that the government has had. CDC 
and NIOSH have gone into these plants and done wall-to-wall 
epidemiological surveys, and we have access to that information 
as well.
    And so I think there is a variety of people across the 
government who are working to improve the safety and health in 
these --
    Mr. Castro. Well, but you have got 11,000 people that have 
gotten sick. You have got a lot of people that are dead now. 
The meat-packing plants, along with nursing homes and cruise 
ships, have been the places where this thing has spread very 
rapidly, and yet you don't believe that these standards should 
be mandatory?
    Ms. Sweatt. I think that people should comply with the law, 
and if we can continue to put the best practices in place, we 
will eventually and hopefully, you know, soon, as in tomorrow, 
eradicate this problem, but it is a challenge, and our folks 
continue to tackle it.
    Mr. Castro. And I also think that the good-faith standard 
is problematic here because can you tell me anywhere else in 
the OSHA enforcement program, aside from equipment shortages, 
where good faith gets an employer out of an OSHA citation?
    Ms. Sweatt. I can tell you that upon implementation of the 
silica standard, we implemented the good-faith policy for 
approximately 30 days as employers learned and tried to figure 
out how they were to comply with the new silica standard. So it 
is not novel, if you will, and we have seen dramatic compliance 
with silica now.
    Mr. Castro. Thanks for your testimony.
    The Trump Administration has been woefully inadequate in 
setting standards, mandatory standards, that will save people's 
lives, even as more and more people have become infected and 
the President has forced these plants to stay open. And that is 
an incredible failure of the Federal agencies and of the Trump 
Administration. I yield back.
    Chairwoman Adams. Thank you very much. We are going to 
recognize now the gentleman from Kansas, Mr. Watkins. You are 
recognized, sir.
    Mr. Watkins. Thank you, Madam Chair, and thank you, Mr. 
Byrne. Thanks to the panelists for coming today. It is my 
belief and most people in eastern Kansas' belief that the 
President and associated agencies have taken decisive action 
amid this incredible pandemic.
    And in fact, it is during this time the response warrants 
not only just a whole-of-government approach but really a 
whole-of-America approach, and now is the time when we should 
be looking past partisan politics and come together in order to 
respond in an appropriate and proportionate manner. And I 
believe that largely we have done that, and I know, Dr. Howard, 
you have brought up how conditions and guidance is evolving, 
because we are a learning organization.
    And I also know that, Ms. Sweatt, you have pointed out that 
the guidance is just that, because the, you know, decision-
making authority, in my opinion, ought to be pushed down to 
more local levels where it could be adopted to a community 
because they can see their health situation and what applies to 
them.
    You know, what might be true in New York City might not be 
true in Topeka, Kansas. And in fact, what might be true in 
Topeka, might not be true in a small town called Iola, Kansas. 
They might know how many hospitals they have, how many -- what 
PPE situation is and all. And so I applaud you for your 
efforts, and I know it is a very challenging time.
    Ms. Sweatt, getting back to the increased number of 
employers and employees who have reached out to you, has there 
been any particular industry that has reached out more than the 
other industries?
    Ms. Sweatt. No. I would say we have seen across the board 
from industries looking for information and guidance, and we 
have provided as many people from the agency as possible to 
talk to folks, either webinars or, you know, answering other 
questions. And, you know, again, by and large, we do think that 
employers are trying to do their best to respond to this. And 
the agency will be there to help give them the best information 
that we can.
    Mr. Watkins. Thank you. And Dr. Howard, as the economy 
regains its strength, you know, most of us agree that the 
biggest fear and threat here is a deflationary spiral going 
past these economic lines that we can't return back from.
    And so obviously we want to return back to work. We all 
think many of us believe that to be the best stimulus. We can't 
simply just print money in hopes that saves us. And so that 
makes the CDC and its guidance so incredibly, incredibly 
important. Does the CDC have specific guidance for companies 
that the workers aren't simply allowed to practice social 
distancing perhaps by nature of how closely they are required 
to stand?
    Dr. Howard. Well, I think the paradigmatic type of business 
that we are familiar with, having done now a number of field 
investigations in these workplaces, is meat processing, where 
it is extremely labor-intensive. People are shoulder to 
shoulder oftentimes on these production lines. There is nothing 
closer than that type of workplace.
    We have also seen in nursing homes, in hospitals, you have 
to be close to the patient. You can't do your work 10 feet away 
from the patient. So there are a number of workplaces in which 
congregate working situations are significant.
    Mr. Watkins. And in eastern Kansas we have actually, in my 
district, we have had a hog slaughtering business that has had 
a number of cases. What should I, as a policy maker, what 
should I know as I approach those business leaders?
    Dr. Howard. What I would do is take a copy of the CDC/OSHA 
guidance on meat and poultry processing for workers and 
employers, all 10 pages. Those are our recommendations for 
solving the problem.
    Mr. Watkins. Excellent. And this question is generally for 
both of you. Would you say that we are generally trending up or 
trending down in our capacity to deal with this pandemic?
    Dr. Howard. Well, if you look at the case numbers, other 
than some notable hotspots, the general numbers in new cases, 
day over day, as well as new fatalities day over day, are going 
down. As the CDC Director has pointed out, there may be a 
second wave in the fall, coupled with our normal seasonal 
influenza, so we can't rest until we take care of the whole 
problem.
    Mr. Watkins. Thank you. That does it for my time. Thank you 
for coming. I appreciate your professionalism and hard work.
    Madam Chair, I yield.
    Chairwoman Adams. Thank you very much. I want to recognize 
the gentleman from Pennsylvania, Mr. Keller.
    Mr. Keller. Thank you, Madam Chair, and I would like to 
thank both our testifiers for being here today. We do know that 
the job that you do is very important and appreciate the work 
you do, and I know the employers that you help appreciate 
keeping their employees safe.
    Because as an employer myself prior to being elected to 
office, I understand that the most important asset that we have 
is the people that go to work every day in our businesses, and 
we want to make sure they are safe.
    Ms. Sweatt on May 19, OSHA updated an interim enforcement 
response plan to increase the use of on-site inspections for 
all types of workplaces, not just healthcare facilities and 
emergency responders as OSHA had previously prioritized. Can 
you explain OSHA's rationale for initially focusing on 
healthcare and emergency responder cases for onsite inspection, 
and why the agency is now expanding the use of onsite 
inspections in other workplaces?
    Ms. Sweatt. Thank you. As the pandemic began, our frontline 
healthcare providers were clearly in the, you know, the most 
challenging position to address the pandemic.
    So we put all of our -- not all -- but we put a majority of 
our resources into helping with those kinds of complaints, 
working with our guidance documents to ensure respirators were 
available to them.
    As the pandemic has changed and as the country looks to 
return to work, we thought our posture should change as well, 
and so we have gone from places where employers were not 
actually open, which would have also changed our resources, to 
looking at where people are going to be opening and encouraging 
folks to, you know, plan. And our people will be out.
    We have protocol for how our inspectors will work onsite, 
and our folks are to do job hazard analysis before they go do 
inspections so that they can protect themselves as well.
    Mr. Keller. Okay. Thank you. I appreciate that. And Dr. 
Howard, I think we touched on this a little bit, but I will 
just sort of say this. As the economy regains its strength, 
businesses will continue to take steps to return to full 
operating capacity. This could be difficult, however, because 
there are areas and tasks in workplaces where social distancing 
is simply not feasible. Does the CDC currently have guidance 
that provides safe alternatives where social distancing is not 
possible, and if not, would the agency consider providing such 
guidance to employers and employees?
    Dr. Howard. Yes. We have -- a lot of our guidance does 
create a default physical distancing, but then when physical 
distancing is not feasible, we recommend other things, such as 
the wearing of cloth facial coverings.
    Mr. Keller. The other question I guess I would have, as we 
see and as we move forward, and as employers start to open up 
their businesses and start to, you know, get to more operating 
capacities and increase that, the guidance that they need, as 
it is updated, how readily available, or how are we 
communicating that to our employers so that they have the most 
up-to-date information?
    Should we find a better way to protect our employees or a 
more efficient way of going about it? Is that something that is 
pushed out by OSHA and CDC, or do the employers have to go 
someplace to look for that?
    Ms. Sweatt. Our information is available on our website, 
and we have seen a dramatic increase in the use of our website 
and our guidance documents. We link to a lot of CDC guidance, 
but we are also using all of the social media platforms 
available. So we are trying to reach as many folks as possible. 
We have a newsletter that has gone from approximately 230,000 
to 280,000 subscribers over the last month and a half, so I 
think people are looking to the agency for information. And we 
are updating it as quickly as possible when we learn of changes 
or other things that we need to be doing.
    Dr. Howard. I would just add, one of the other channels 
that we are using are webinars that are specifically sponsored 
by employer associations in particular areas.
    I have done several, the Iron Workers International, for 
instance, three for the National Safety Council. So webinars 
are a good way to get information out and then for the 
attendees to ask questions of government officials.
    Mr. Keller. Yeah. I would say, as we experience things in 
different parts of the country, there might be a best practice 
or somebody that is -- two similar manufacturers or processors 
or what have you, but somebody may have figured out a best 
practice.
    Are we able to share that readily across industry? Is that 
something that we push out a notice to anybody? Can they sign 
up for, like, an alert if something changes, or how does that 
work?
    Dr. Howard. Sure. And I think one of the issues is our 
guidance, CDC guidance, evolves based on what we learn from 
employers and workers in the particular workplace, how they are 
making their workplace safer. So we include all of that 
learning into our next version of guidance on the particular 
industry or occupation.
    Chairwoman Adams. Thank you very much. Time is up.
    Mr. Keller. Thank you. I yield back.
    Chairwoman Adams. Thank you.
    Let me recognize the gentleman from South Dakota, Mr. 
Johnson. You are recognized, sir.
    Mr. Johnson. Thank you, Madam Chair. My line of questioning 
will be for Dr. Howard. Dr. Howard, last month, the President 
announced that CDC, OSHA, others, should do everything they can 
to keep meat-packing facilities open given the critically 
important role they play in the food-supply chain.
    I was just hoping you could walk us through a bit what the 
technical advice, guidance, and work your agency has done in 
continuation of that mission?
    Dr. Howard. Well, as I mentioned, we have a 10-page 
guidance that we have done with OSHA, and it is really jam-
packed with a lot of very specific information for processing 
in beef, pork, and chicken. One of the challenges as I have 
mentioned --
    Mr. Johnson. If you could highlight maybe the top two or 
three best practices and findings.
    I just know, particularly in South Dakota, this is an area 
of high interest because of the Smithfield plant, and I think 
folks watching at home on the internet, they may be interested 
to know the best recommendations.
    Dr. Howard. So we start out with the basic recommendation 
of physical distance between employees. But as you well know, 
coming from South Dakota and the Smithfield plant and other 
plants like that, it is very difficult. It is a very labor-
intensive process. So what can you do in lieu of that physical 
distancing? You can try to separate people. Maybe you can put a 
partition between them so that they are not shoulder to 
shoulder. Or you can protect their breathing zone by the use of 
a cloth face mask with a face shield, et cetera.
    One of the things that we have noticed in these plants, and 
I will mention this because to me it is a very important best 
practice, these plants are very, very noisy. And one of the 
things we have seen, even if you keep individuals separated as 
much as you can and you keep a cloth face mask and a shield, 
they sometimes have to speak to each other or a supervisor and 
off comes the shield, down comes the mask, and they are 
shouting at each other, you know, mouth to ear.
    That kind of interaction is a possible transmissive event. 
So if we can prevent that from happening, that is a best 
practice that we think would really help. It is not one that a 
lot of people know about because people are more knowledgeable 
about separating the line in terms of employees.
    The other thing is ventilation in the workplace to make 
sure that you are moving a lot of air. In a workplace like 
these plants, you know, the temperature is kept very low, which 
actually helps the virus. So it is a challenge. The 
temperatures are low because of food safety issues.
    So each time you look at one of these best practices, you 
have to put it into the context of the production facility 
itself. It is a very challenging thing for us to make 
recommendations and to get them to be feasible, technically, 
within that workplace, a very challenging thing.
    Mr. Johnson. I mean every relocation, obviously, is 
different. I mean, we talk a bit about the role of the screens 
as people go into the workplace. The last time I was at 
Smithfield, I examined the -- what appeared to be rather 
rigorous process they have for people to get into the plant 
with temperature checks and screening questions. Has that 
proven to be effective? Is that a key best practice?
    Dr. Howard. Sure. When you look at the hierarchy of 
controls, the first step is hazard elimination. Well, the 
hazard is actually the virus. It just happens to be carried 
along by people who may not know they are infected. They may be 
asymptomatic. Or they may have a little fever, but a lot of 
people don't really notice they have a fever.
    So those checks prior to entry: Do you have any symptoms? 
Symptom questioning. Are you around somebody? Have you been in 
contact with anybody who has Covid-19? The issue about doing a 
temperature check. And then some companies are starting actual 
testing. But testing for the virus is only a snapshot in time. 
It is not -- it is not the -- it doesn't answer the whole thing 
as you go through time. It gives sometimes workers a false 
sense of security.
    So together with those entry checks, then you go into the 
workplace and you look at engineering controls, administrative 
controls, and PPE, if necessary.
    Mr. Johnson. So obviously, humankind is very good at 
fighting the last battle. And it does seem that there is high 
awareness, and packing plants are on high alert. But that is 
obviously not the only critical portion of the food supply 
chain. What is the next place? What is the next weakness within 
the food supply chain that we should be attuned to?
    Dr. Howard. Well, when you look at the food when it gets to 
the grocery store and the interaction in that setting, not 
between workers, between workers and their customer -- and 
oftentimes you see now the same kind of physical distancing, 
engineering controls happening with Plexiglas between the clerk 
and the customer.
    So we are seeing the same fundamental principal, i.e., 
physical distancing being used in a lot of creative ways 
depending on the specific workplace that you are in.
    Mr. Johnson. Thank you, Dr. Howard.
    And thank you, Madam Chair.
    Chairwoman Adams. Thank you very much.
    I want to remind my colleagues -- let me thank the 
witnesses very much -- I want to remind my colleagues that 
pursuant to Committee practice, materials for submission for 
the hearing record must be submitted to the Committee Clerk 
within 14 days following the last day of the hearing. So by the 
close of business on June 10, preferably Microsoft Word format.
    The materials submitted must address the subject matter of 
the hearing. Only a Member of the Subcommittee or an invited 
witness may submit materials for inclusion in the record. 
Documents are limited to 50 pages. Documents longer than 50 
pages will be incorporated into the record via an internet link 
that you must provide to the Clerk within the required time 
frame. But recognize that years from now, that link may no 
longer work.
    Pursuant to House Resolution 965 and the accompanying 
regulations, items for the record should be submitted 
electronically by emailing submissions to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f2a2b2e212b232e2d203d61272a2e3d2621283c0f222e26236127203a3c2a6128203961">[email&#160;protected]</a> Member offices are 
encouraged to submit materials to the inbox before the hearing 
or during the hearing.
    At the time the Member makes the request, the record will 
remain open for 14 days for Committee practice for additional 
submissions after the hearing.
    Again, I want to thank the witnesses for your participation 
today. What we have heard is very troubling. Members of the 
Subcommittee may have some additional questions for you, and we 
ask the witnesses to please respond to the questions in 
writing.
    The hearing record will be open -- held open for 14 days in 
order to receive, receive those responses.
    I want to remind my colleagues that pursuant to Committee 
practice, witness questions for the hearing record must be 
submitted to the Majority Committee staff or Committee Clerk 
within 7 days. The questions submitted must address the subject 
matter of the hearing.
    I now want to recognize the distinguished Ranking Member 
for his closing statements.
    Mr. Byrne. Thank you, Madam Chair. Before I get started, I 
ask unanimous consent to place in the record letters from the 
American Hospital Association, The Coalition for Workplace 
Safety with 58 additional organizations, and the National 
Association of Manufacturers providing their views on today's 
hearing topic.
    Chairwoman Adams. So ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Byrne. Thank you.
    I want to thank the witnesses. That was outstanding. You 
provided this Committee and the public with an enormous amount 
of very important information, and we are grateful to you for 
it.
    Sometimes you were asked questions and said it is a yes or 
no, unfortunately, this topic does not lend itself to a lot of 
just simple yes or no answers.
    A lot of Members said that this is very important. And they 
are right. This is extremely important. And that is why 20 of 
us -- I am updating my count from my opening -- 20 of us 
decided to be here in person, 13 Republicans and 7 Democrats. 
We felt strongly enough about it to be here in person. But so 
did millions of Americans today show up for work and do their 
jobs in person, because that is what we are supposed to do.
    When I started preparing for this hearing, I have looked at 
it from a point of view from my prior life as a lawyer 
representing employers that have to comply with OSHA law. And 
so I said, okay, if one of my clients called me, what kind of 
advice would I give them? So I went online to see what you guys 
had put out. And it took me a long time because you have put 
out a lot of stuff.
    The benefit of that to both the employers and employees is 
this. This is a confusing time. And just getting good quality 
information is about 99 percent of what we need to do. And good 
quality information hasn't been exactly easy to come by in this 
environment.
    So the guidance you have put out has been extraordinarily 
important to employers trying to comply with the law, but more 
importantly do what they want to do which is to protect their 
employees. And you have given that to them. And you are working 
with them to help them to understand it.
    The experts have sort of been all over the place about this 
disease. Early on, oh, it is not a big problem. Oh, no, now it 
is a big problem. Early on, don't wear a face mask. Now you are 
supposed to wear a face mask. We got some experts saying today 
we shouldn't have shut down. The other experts saying we had to 
shut down.
    So it has been difficult for all of us to try to figure 
out, all right, what should we do? And what you all have tried 
to do and have done, I believe, is work through this in good 
faith to try to distill this down, understand it for the rest 
of us so that we can implement it. And I know it is a changing 
situation. So you are going to have to change your guidance as 
we go along. And I appreciate that about what you are doing.
    We made some mistakes in Washington. Some of the stuff we 
have done has gone too far, and we have hurt our economy. But 
we based it on the advice we had at the time from public health 
experts who were dealing with limited information on their 
part. Some of the projections we got were wildly off the mark. 
And we are just having to deal with it as best we can.
    I don't see how it helps anything for us to turn to you 
guys, who have this very important obligation in this very 
difficult time, to keep the workplace safe, for us to say stop 
and go through all of the legal mumbo jumbo of doing the 
standard.
    There is a difference between keeping people safe and 
issuing a standard. Issuing a standard in and of itself doesn't 
keep anybody safe. We have a standard right now, it is called 
general duty clause. Every employer in America has an 
obligation under the OSHA general duty clause to keep their 
workplaces safe. There is no question about that.
    The questions on this environment, what is that duty? The 
guidance helps describe the duty. And if enforcement is 
necessary, you use the guidance to determine this employer did 
not comply with the general duty clause.
    When I saw the AFL-CIO filed the lawsuit, I was really 
disappointed. If there ever was a time for us not to be filing 
frivolous lawsuits, this would be it. Particularly, a lawsuit 
against the very departments of the government that we rely 
upon to keep the workplace safe. We don't need you to be taking 
time off from that job of keeping the workplace safe, to go 
sitting down with a bunch of lawyers, and trying to decide what 
we got to do to respond to this lawsuit. That is inhibiting 
workplace safety, not helping it.
    And here in Congress, we passed a bill out of the House a 
couple of weeks ago -- it is not going anywhere, it is not even 
going to be taken up in the Senate because of the way it was 
done and because it has got stuff in it that is just not 
acceptable -- but it attempted to deal with this issue, and not 
once do we have a hearing on it in this Committee, the 
Committee of jurisdiction, not once did we bring that bill in 
this Committee to have a markup, the Committee of jurisdiction 
on that topic, not once. If this is so important, why didn't we 
do it before we passed the bill?
    Look, we have worked together in this Congress on this 
disease. We passed almost $3 trillion in spending bills in a 
very short period of time with huge bipartisan majorities. That 
is the only way to act in this situation is with a bipartisan 
commitment to the American people. We need to work together. 
Like our constituents are having to do.
    We shouldn't be having partisan hearings. We should show up 
for work like our constituents do. We should take this 
seriously, like our constituents do. And we should understand 
at the end of the day, it is all of our job to work for a safe 
workplace.
    What I said before, the most important part of the American 
economy, the working men and women of the United States of 
America. Thank you for what you do every day. We are grateful 
to you. We are grateful for your presence.
    And with that, Madam Chairwoman, I yield back.
    Chairwoman Adams. Thank you, Mr. Byrne.
    I now recognize myself for the purpose of making my closing 
statement. I want to again thank Deputy Assistant Secretary 
Sweatt and Director Howard both for joining us for this 
important discussion. I want to thank all of my colleagues who 
have been here today, those who are physically here, and those 
who are virtually here.
    I do want to emphasize that the ETS and The Heroes Act is 
not a rigid or inflexible one-size-fits-all standard that fails 
to accommodate changing scientific knowledge.
    The text of The Heroes Act calls for an ETS to require an 
infection control plan based on the hazards in that specific 
workplace. It requires assessment of risks in that workplace 
and a plan tailored to the particular workplace. The 
development of the plan should involve employees. This is not a 
required rigid standard.
    Second, California OSHA has an airborne transmissible 
standard. It applies to Covid and healthcare and has not been a 
one-size-fits-all.
    Let me just say that what we heard today is that in the 
middle of this global health emergency that is causing more 
deaths in less time than any other workplace crisis that OSHA 
has faced in its 50-year existence, OSHA stubbornly refuses to 
use its authority to protect this Nation's workers.
    The failure to act is a stunning act of abdication by the 
senior leaders in the Department of Labor. When workers are 
demanding strong standards and enforcement of those standards. 
Instead, we get voluntary guidance that employers can choose to 
comply with if it is convenient. And the best OSHA can offer is 
threats to use a largely toothless general duty clause.
    When OSHA inspections do occur, they happen too often after 
the bodies are in the morgue, rather than when the prevention 
can make a difference. When employers need clear standards so 
that they know when they have met their obligation to make 
their workplaces safe, instead they get vague, generic 
suggestions. This is not how the architects of the Occupational 
Safety and Health Act envisioned OSHA's response during a 
workplace crisis.
    The Act tells us that OSHA shall issue an Emergency 
Temporary Standard if it determines that workers are exposed to 
a grave danger or from new hazards, and that a standard is 
necessary to protect workers from that hazard.
    Not only do the large numbers of sick and dying tell us 
that there is a grave danger, but it is clear that the limited 
actions taken by OSHA are not sufficient. Not only is OSHA 
refusing to act on the emergency authority, but the agency 
won't even resume work on a large awaited permanent standard 
that would address the hazard that this Nation is facing.
    So as the economy reopens, the key to preventing an even 
more devastating second wave will be protecting workers and the 
millions of workplaces that present exposure hazards. Yet, we 
have no mandatory standard, no cop on the beat to enforce safe 
working conditions that will be the key to preventing that 
second wave.
    And it is deeply disappointing that OSHA, the only Federal 
agency with the authority to enforce safe working conditions, 
is missing in action. And I am not only disappointed, but I am 
saddened for the workers of this country who continue to lack 
adequate protections on the job, and when they go home, they 
will infect their families. And I am upset about the future of 
this country that OSHA's inaction foreshadows.
    And I can only hope that you and Secretary Scalia will wake 
up before it is too late and choose to fulfill OSHA's mission 
to assure safe working conditions for every man and for every 
woman in this country.
    If there is no further business or without objection, the 
Committee stands adjourned.
    Thank you.
    [Additional submissions by Chairwoman Adams follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional submission by Mr. Byrne follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    [Questions submitted for the record and their responses 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 1:34 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
